        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
Audit of Incurred Costs for UT-
Battelle under Department of Energy
Contract No. DE-AC05-00OR22725
during Fiscal Year 2012




OAS-M-14-05                            April 2014
                                  Department of Energy
                                    Washington, DC 20585

                                          April 21, 2014


MEMORANDUM FOR THE MANAGER, OAK RIDGE NATIONAL LABORATORY
               SITE OFFICE


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Audit of Incurred Costs for UT-
                         Battelle under Department of Energy Contract No. DE-AC05-
                         00OR22725 during Fiscal Year 2012"

BACKGROUND

The attached report presents the results of the audit of costs incurred by UT-Battelle, LLC (UT-
Battelle) to manage and operate the Oak Ridge National Laboratory (ORNL) during Fiscal Year
(FY) 2012. The Office of Inspector General contracted with an independent certified public
accounting firm, KPMG, LLP (KPMG), to determine whether UT-Battelle's incurred costs to
manage and operate ORNL for the term October 1, 2011 through September 30, 2012, were
allowable, allocable and reasonable.

Since 2000, UT-Battelle has managed and operated ORNL under contract with the Department
of Energy (Department). ORNL is the largest science and energy national laboratory in the
Department. ORNL's scientific programs focus on materials, neutron science, energy, high
performance computing, systems biology and national security. During FY 2012, UT-Battelle
incurred and claimed $1,532,200,040.

As an integrated management and operating contractor, UT-Battelle's financial accounts are
integrated with those of the Department, and the results of transactions are reported monthly
according to a uniform set of accounts. UT-Battelle is required by its contract to account for all
funds advanced by the Department annually on its Statement of Costs Incurred and Claimed, to
safeguard assets in its care, and to claim only allowable costs. Allowable costs are incurred costs
that are reasonable, allocable and allowable in accordance with the terms of the contract,
applicable cost principles, laws and regulations.

RESULTS OF AUDIT

KPMG concluded that, except for the findings detailed in the attached report, UT-Battelle
prepared its FY 2012 Statement of Costs Incurred and Claimed in accordance with applicable
                                                2


guidance including the Federal Acquisition Regulation, Department of Energy Acquisition
Regulations and Cost Accounting Standards regarding accuracy, allowability, allocability and
reasonableness of incurred costs.

KPMG identified several issues related to unallowable costs. Specifically, it determined that
UT-Battelle improperly included a meal allowance amount when calculating the wage rate,
which resulted in an overstatement of FY 2012 costs of $14,146. As such, KPMG questioned
this amount. In addition, KPMG noted that the following allowance reimbursements were in
excess of costs incurred: (1) two payroll allowance reimbursements of $82; (2) one relocation
allowance of $71; and (3) a layoff allowance of $17,374, which was calculated using an incorrect
company service date. Because these were part of a statistical sample, KPMG projected that
total FY 2012 costs incurred were overstated by $44,820 to include unallowable relocation
allowance costs of $2,226 and layoff allowance costs of $42,954. As such, KPMG questioned
this amount. Further, KPMG found that UT-Battelle had calculated the portion of lobbying
activities for professional membership fees based on an historical percentage rather than utilizing
the invoice amount, thereby underestimating the unallowable lobbying portion of the
membership. Finally, KPMG identified subcontractor costs totaling $45,248,484 for which
audits of the subcontractors' final indirect cost rates have not yet occurred. As such, KPMG
considered this amount unresolved.

In addition, KPMG noted certain internal control weaknesses. For example, an overpayment was
made to an employee for relocation costs reimbursement. While the employee notified UT-
Battelle of the error and refunded payment, KPMG determined that the overpayment was made
because the amount was not reconciled to receipts and supporting documentation prior to
payment. KPMG also found that a duplicate payment was made to a vendor for an employee's
relocation costs. UT-Battelle's internal review process discovered the duplicate payment, but the
correcting entry was not made until FY 2013, resulting in an overstatement of FY 2012 costs of
$2,261. Further, KPMG noted that the duties for recording and reviewing Significant Event
Award amounts were not properly segregated and approval for the award amounts was not
retained. Lastly, KPMG determined that UT-Battelle had incorrectly recorded a payment to a
commercial vendor as a Government transfer payment in the general ledger.

RECOMMENDATIONS

We recommend that the ORNL Site Office Manager direct the Contracting Officer to:

   1. Ensure that UT-Battelle determine evaluated wage rates in accordance with applicable
      requirements;

   2. Make a determination regarding the allowability of the $14,146 in overstated claimed
      costs and recover those amounts determined to be unallowable;

   3. Ensure that UT-Battelle reimburses only allowable and incurred relocation costs and
      properly adjusts for any rebate, allowance or other credit;

   4. Make a determination regarding the allowability of the statistically projected unallowable
      relocation allowance costs of $2,226 and recover those amounts determined to be
      unallowable;
                                                 3


   5. Ensure that UT-Battelle calculates all severance payments utilizing the correct company
      service date;

   6. Make a determination regarding the statistically projected unallowable layoff allowance
      costs of $42,594, less the actual amount that has been reimbursed of $18,703, or $23,891,
      and recover those amounts determined to be unallowable;

   7. Ensure that UT-Battelle calculates membership payments accurately by deducting
      unallowable lobbying percentages based on current information and classify the amount
      as unallowable membership costs;

   8. Ensure that UT-Battelle reviews other membership payments made to identify additional
      misstatements of lobbying costs;

   9. Ensure that final indirect cost rates of the identified subcontracts are audited as required
      and recover any costs determined to be unallowable;

   10. Ensure that UT-Battelle reconciles the amount entered for payment by Payroll to the
       amount submitted by Accounts Payable;

   11. Ensure that UT-Battelle prevents the processing of duplicate relocation payments and
       processes relocation payments correctly and cancels payments in a timely manner;

   12. Ensure that UT-Battelle approves and supports Significant Event Award payments in
       accordance with contract requirements; and

   13. Ensure that UT-Battelle properly codes payment transactions in the general ledger.


MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Management generally agreed with the report and recommendations. Management stated that it
had taken action on 10 of the recommendations and planned to take action on 3 others.
Management also stated in separate technical comments that cost-type subcontracts should be
excluded from the amount considered unresolved because not all final vendor documentation had
been received. However, we noted that the subcontract period of performance had ended but
UT-Battelle did not provide evidence that a closeout audit was requested, thus the costs
associated with the cost-type subcontracts should be considered unresolved until such action
occurs. Management's completed and planned actions are responsive to our recommendations.

Management's comments are included in Attachment 2.

PERFORMANCE AUDIT

KPMG conducted the performance audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States and the Department's Office of Inspector
                                                4


General Audit Manual, as appropriate. Government Auditing Standards require that KPMG plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
its findings and conclusions based on the audit objective.

The Office of Inspector General monitored the progress of the audit and reviewed the report and
related documentation. Our review disclosed no instances in which KPMG did not comply, in
all material respects, with the audit requirements. KPMG is responsible for the attached report,
and the conclusions expressed in the report. An exit conference was held with UT-Battelle and
Department personnel on February 19, 2014.

Attachments

cc: Deputy Under Secretary for Science and Energy
    Acting Director, Office of Science
    Deputy Secretary
    Chief of Staff
                                               Attachment 1




                        Performance Audit


Fiscal Year 2012 Audit of the Statement of Costs
  Incurred and Claimed Under Department of
  Energy Contract No. DE-AC05-00OR22725

           For the U.S. Department of Energy
              Office of Inspector General



Auditee: UT-Battelle, LLC

As of Date: February 19, 2014




KPMG LLP
1801 K. Street, NW
Washington, DC 20006
                                                                                                                          Attachment 1 (continued)

                                                              Table of Contents

EXECUTIVE SUMMARY .......................................................................................................................... 2

BACKGROUND .......................................................................................................................................... 6
 Auditee Overview ..................................................................................................................................... 6

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................................................ 6
 Objective ................................................................................................................................................... 6
 Scope ......................................................................................................................................................... 6
 Methodology ............................................................................................................................................. 6

RESULTS ..................................................................................................................................................... 1
  Findings, Recommendations, and Auditee Responses.............................................................................. 1
  Conclusion .............................................................................................................................................. 32

APPENDIX A - Observations.………..…………………………………...…………………………….…33
APPENDIX B - Summary of Subcontractor Audit Status - Flexibly Priced Subcontracts ........................ 35
APPENDIX C - Summary of Indirect Costs Included in the FY 2012 Statement of Costs Incurred and
            Claimed ............................................................................................................................. 39
APPENDIX D - Summary of Prior Year Open Allowable Cost Findings.................................................. 40
                                                                           Attachment 1 (continued)




                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




EXECUTIVE SUMMARY


February 19, 2014


Mr. F. Scott Ward
Technical Monitor
U.S. Department of Energy
Office of Inspector General (OIG)
Germantown, MD

Dear Mr. Ward:

This report presents the results of the fiscal year ended September 30, 2012 (FY 2012) Statement of
Cost Incurred and Claimed (SCIC) Audit to address the performance audit objective related to UT-
Battelle, LLC (hereinafter referred to as Auditee or UT-Battelle). Our work was performed during the
period May 20, 2013 to February 19, 2014, and our results, reported herein, are as of February 19,
2014.

KPMG was engaged under Work Order No. OIG-2013-10, dated March 20, 2013, to conduct the audit
of UT-Battelle’s FY 2012 SCIC. This performance audit report presents the results of our audit.

We conducted this performance audit in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
recommendations based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and recommendations based on our audit objective.

Our audit objective was to review the FY 2012 SCIC to determine whether costs claimed were
accurate, allowable, allocable, and reasonable in accordance with the contract and applicable
Government acquisition regulations.

The FY 2012 SCIC presented total costs incurred of $1,532,200,040. We selected statistical samples
to test the major claimed cost elements of Labor, Allowances, Procurement, Non-Procurement, Travel
and Subcontracts. We selected judgmental samples to test specific cost areas (Dues, Memberships and

                                                                                            Page 2
                                                                                 Attachment 1 (continued)
Subscriptions; Public Relations and Advertising; Employee Welfare and Morale; Professional and
Consultant Services; Lobbying; and, Costs Related to Legal Proceedings).

The following table summarizes our sample testing results, which include costs questioned due to
being unallowable as per the Federal Acquisition Regulation (FAR) and the Department of Energy
Acquisition Regulation (DEAR). In addition, the tables also present the statistical projection of our
sample results to the population of costs incurred:

Table 1 – Unallowable Costs

                                                      Statistically Projected
                             Unallowable Costs          Total Unallowable            Total Projected
    Expense Type             [Noted in Sample]                 Costs                 Questioned Costs

Labor                                                 $14,146 (including          $14,146 (including
                                                $2
                                                      estimated taxes)            estimated taxes)

Allowances (including                              $44,820 ($41,793 in            $44,820 ($41,793 in
Layoff and Relocation                      $17,527 allowances and $3,027          allowances and $3,027
Allowances)                                        in estimated taxes)            in estimated taxes)

Procurement                                      $-                         $-                          $-

Non-Procurement                                  $-                         $-                          $-

Travel                                           $-                         $-                          $-

Subcontracts                                     $-                         $-                          $-

Specific Cost Areas –
                                               $10                          $-                          $-
Lobbying

Total Dollars
                                           $17,539                    $58,966                    $58,966
Questioned

Accuracy, Allowability, Allocability, and Reasonableness of Costs

Our findings relating to unallowable costs and the related questioned costs are as follows:

• For one transaction of our statistical sample of 50 labor transactions, UT-Battelle improperly
  included the total "meal allowance" amount in the calculation of the evaluated wage rate (i.e.,
  "regular rate"). The regular rate is also the base used to determine the "overtime rate." Upon further
  review, we determined that this issue was not isolated, and that UT-Battelle had improperly
  computed both the regular and over time wage rates in FY 2012 and prior years because of a
  methodology issue. UT-Battelle calculated the total effect on FY 2012 costs as an overstatement of
  $14,146, including related employer taxes.
• Two payroll allowance reimbursements from our sample of 54 allowances were in excess of costs
  incurred by $82. One layoff allowance was in excess of costs incurred by $17,374. Supplemental
  samples of layoff allowance and relocation allowances were tested. One relocation allowance in

                                                                                                 Page 3
                                                                               Attachment 1 (continued)
  our supplemental sample of 29 relocation allowances was in excess of costs incurred by $71.
  Because these samples were part of a statistical sample, we project that total FY 2012 costs
  incurred are overstated by $44,820, including related employer taxes, as a result of this condition.
• For one of the transactions in our specific cost areas sample of lobbying costs, the amount of
  membership allocated to lobbying activities was underestimated by $10; therefore, UT-Battelle
  overstated total claimed costs.

Other Matters

While the following matters did not result in questioned costs, we identified certain internal control
weaknesses that UT-Battelle should address, as follows:

•   We noted the following internal control weaknesses in our testing of Payroll related transactions:
    - An overpayment was made to an employee for reimbursement of relocation costs. The amount
        entered for payment was not reconciled to the receipts and supporting documentation prior to
        payment. The employee notified UT-Battelle of the error and refunded the overpayment.
    - A duplicate payment was made to a vendor for relocation costs. The duplicate payment was
        not corrected until FY 2013, which resulted in an overstatement of the FY 2012 SCIC.
    - The duties for recording and reviewing the Significant Event Award (SEA) amounts to be paid
        were not properly segregated. In addition, no formal documentation of the approval of the
        award amounts by the SEA was retained.
•   We also noted an error in the coding/classification of cost transactions in the general ledger. We
    noted in our sample one commercial transaction that was recorded as a Government transfer
    payment.

We also identified subcontractor costs included in the FY 2012 SCIC amounts that are considered
unresolved because audits of those subcontractor's final indirect cost rates have not yet occurred.
Appendix B - Summary of Subcontractor Audit Status – Flexibly-Priced Subcontracts presents the
details of cost-based subcontracts, for which audited indirect rates are needed in order for UT-Battelle
to receive final billings. As shown in Appendix B, $45,248,484 of cost-based subcontract costs are
included in UT-Battelle’s 2012 SCIC for which final indirect rates are not yet settled.

In addition, while not considered findings, we noted less significant observations, as presented in
Appendix A, which include non-compliance with the travel policies in the Cost Accounting Disclosure
Statement, the need for improved documentation of policies regarding relocation reimbursements for
miscellaneous costs, and the need for UT-Battelle to demonstrate reasonableness for special allocations
for indirect costs.

UT-Battelle recorded costs in the incorrect fiscal year for seven sample items tested. Our sample
testing indicated that costs incurred by UT-Battelle in FY 2011 (prior to October 1, 2011) and FY 2013
(subsequent to September 30, 2012) were included in the FY 2012 SCIC. However, the
misclassification is small between years, and there is not a significant amount of overhead associated
with the costs. The recording of costs in the incorrect fiscal year did not have an effect on overall cost
allowability.
                                                * * * * *
Based upon the performance audit procedures performed and the results obtained, we have met our
audit objective. We conclude that, except for the findings noted above and detailed in this report, UT-
Battelle, LLC has prepared its FY 2012 SCIC in accordance with applicable Government acquisition
regulations of the FAR, the Cost Accounting Standards, and the DEAR, regarding accuracy,

                                                                                                 Page 4
                                                                             Attachment 1 (continued)
allowability, allocability and reasonableness of incurred costs. The net total projection of questioned
direct costs, based on the results of the sample tested is $58,966. UT-Battelle and the DOE will also
need to consider the resolution of the unresolved subcontractor costs identified in Appendix B, upon
receipt of final incurred cost audits of those subcontractors for FY 2012.

This performance audit did not constitute an audit of financial statements in accordance with
Government Auditing Standards. KPMG was not engaged to, and did not, render an opinion on the
Auditee’s internal controls.

This report is intended for the information and use of the U.S. Department of Energy and management
of the Auditee. The report is not intended to be, and should not be, used by anyone other than these
specified parties.

Sincerely,




                                                                                               Page 5
                                                                                Attachment 1 (continued)


    BACKGROUND

    Auditee Overview
    UT-Battelle, LLC (hereinafter referred to as the Auditee or UT-Battelle) manages and operates the Oak
    Ridge National Laboratory in Oak Ridge, Tennessee, under contract DE-AC05-00OR22725. The Oak
    Ridge National Laboratory is a Federally Funded Research and Development Center.


    OBJECTIVE, SCOPE, AND METHODOLOGY
    Objective
    Our audit objective was to review the FY 2012 Statement of Costs Incurred and Claimed (SCIC) to
    determine whether costs claimed were accurate, allowable, allocable, and reasonable in accordance
    with the contract and applicable Government acquisition regulations.
    Scope

    We conducted our performance audit in accordance with Government Auditing Standards. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
    provide a reasonable basis for our findings and recommendations based on our audit objective. We
    believe that the evidence obtained provides a reasonable basis for our findings and recommendations
    based on our audit objective.

    Our scope was limited to reviewing the costs reported on the SCIC as incurred by UT-Battelle during
    the fiscal year ended 2012 (FY 2012). We reviewed the following areas of reported costs for accuracy,
    allowability, allocability, and reasonableness:

    • Labor;
    • Allowances;
    • Procurement;
    • Non-Procurement;
    • Travel;
    • Subcontracts; and,
    • Specific Cost Areas (Dues, Memberships and Subscriptions; Public Relations and Advertising;
      Employee Welfare and Morale; Professional and Consultant Services; Lobbying; and, Costs
      Related to Legal Proceedings)

Methodology

We performed the following procedures as part of our audit:
•    Reviewed the terms and conditions of the contract;
•    Reviewed prior audit history including prior Office of Inspector General (OIG) audit reports, and
     internal/external audit reports, and other relevant audit history;


                                                                                                 Page 6
                                                                                 Attachment 1 (continued)


•   Determined whether there have been any major changes in the internal control structure, policies and
    procedures, or organizational structure;
•   Reviewed applicable rules, regulations and guidance, as necessary;
•   Assessed the Auditee’s overall risk profile to develop and/or modify existing audit procedures,
    including:
            o   Analytical procedures on the SCIC;
            o   Analytical review of operating statement accounts;
            o   Consideration of prior audit coverage;
            o   Consideration of vulnerable areas, based on the above procedures and discussions with
                internal audit, IG, and Auditee management;
•   Developed detailed audit plan and procedures (tailored existing audit procedures, as applicable)
    -   The audit plan included target cost elements and statistical sampling for major disbursement
        categories;
•   Performed on-site audit procedures (fieldwork);
•   Performed supervisory reviews;
•   Developed written report on subject audit and results of audit;
•   Performed quality assurance and sign-off on deliverables; and,
•   Coordinated the audit with the DOE OIG, as necessary, including monthly status reports

RESULTS

Our statistical sample testing results, by cost element, for the period October 1, 2011 through September
30, 2012 are presented below.
The audit program included an overall analytical review of costs incurred, review of internal controls, and
risk assessment. These preliminary steps were followed by transaction testing in the following areas:
Labor, Allowances, Procurement, Non-Procurement, Travel and Subcontracts. In accordance with the
audit program, sample transactions in each of these disbursement areas were tested for accuracy,
allowability, allocability, and reasonableness. The statistical sample size for all areas reviewed was based
on a confidence level of 90 percent, and a precision rate of plus/minus 5 percent.
    1. Labor
        The Labor universe consisted of 1,211 transactions totaling $421,016,464.92 in costs. Using
        statistical sampling, a first stage sample of 18 labor transactions with costs totaling $15,100,678
        was selected. The first stage sample included summary level transactions. The detail for the
        summary level transactions was obtained and using statistical sampling a second stage sample of
        50 labor transactions with costs totaling $166,339 was selected for review. We verified that the
        employees paid were bona fide employees working on the contract effort, that executive
        compensation was paid in accordance with the contract terms, that employee pay rates were in
        accordance with the approved pay schedules or labor agreements, that payroll cost was computed
        in accordance with the time records and the pay rates identified in the personnel records and that
        the salary for the employee was within the range for the respective salary pay scale group.




                                                                                                     Page 7
                                                                           Attachment 1 (continued)


   For one transaction of our statistical sample of 50 labor transactions, UT-Battelle improperly
   included the total "meal allowance" amount in the calculation of the evaluated wage rate (i.e.,
   "regular rate"). The regular rate is also the base used to determine the "overtime rate." Upon
   further review, we determined that this issue was not isolated and that UT-Battelle had
   improperly computed both the regular and over time wage rates in FY 2012 and prior years
   because of a methodology issue. UT-Battelle calculated the total effect on FY 2012 costs as an
   overstatement of $14,146, including related employer taxes. Finding No. OIG-2013-10-03
   discusses this finding further.
2. Allowances
   The Allowances universe consisted of 8,394 transactions totaling $14,386,419 in costs. Using
   statistical sampling, a first stage sample of 39 allowances transactions totaling $10,618,066 was
   selected. The first stage sample included summary level transactions. The detail for summary
   level transactions was obtained and using statistical sampling a second stage sample of 54
   allowances totaling $992,096 was selected for review. We verified that the employees paid were
   bona fide employees working on the contract effort, allowance costs were computed as reported
   on the payroll records and rates used in calculating the allowance amounts were accurate.
   Exceptions were noted for three transactions.
       •   One relocation transaction included an overpayment of $82, $47.50 relating to a credit for
           a Homeowner’s Association fee that was not considered and $34.50 for unallowable per
           diem.
       •    One severance pay amount was computed using an incorrect company service date,
           resulting in an overpayment of $17,374.
       •   A control weakness was noted relating to an overpayment for reimbursement of
           relocation costs, which was identified and reimbursed by the employee.
   Due to the exceptions noted above in the allowances sample, supplemental statistical samples of
   29 relocation and 10 layoff allowances were selected. In the supplemental relocation allowances
   sample, we noted one exception related to an amount reimbursed in excess of costs by $71, and a
   control weakness due to a duplicate payment which was cancelled in FY 2013. In addition, one
   item was recorded in the incorrect year.
   Finding Nos. OIG-2013-10-02 and OIG-2013-10-04 discuss the questioned costs due to
   incorrect or overstated allowance costs invoiced to the Government. Finding No. OIG-2013-10-
   01 discusses the control weakness related to the duplicate payment and the overpayment to an
   employee for reimbursement of relocation costs that was identified and reimbursed by the
   employee.
3. Procurement
   The Procurement universe consisted of 151,577 transactions and $145,425,816 in costs. Using
   statistical sampling, a sample of 40 Procurement transactions with costs of $19,712,258 was
   selected for testing. The sampled transactions were tested for documentation that the item or
   service was received or rendered, for adequate documentation supporting the costs, for proper
   general ledger (GL) account distribution, valid approval, mathematical accuracy, and contract
   allowability. One item was recorded in the incorrect year. No questioned costs were noted.




                                                                                              Page 8
                                                                                 Attachment 1 (continued)


    4. Non-Procurement
        The Non-Procurement universe consisted of 43,804 transactions and $63,737,051 in costs. Using
        statistical sampling, a sample of 52 Non-Procurement transactions with costs of $36,471,565 was
        selected for testing. The sample transactions were tested for documentation that the item or
        service was received or rendered, proper GL account distribution, adequate supporting
        documentation, mathematical accuracy, consistency with like transactions, special contract terms,
        and contract allowability. Five items were recorded in the incorrect year. No unallowable costs
        were noted.
    5. Travel
        The travel sample universe consisted of 22,726 transactions totaling $26,290,924. Using
        statistical sampling, a sample of 73 travel transactions with costs of $1,501,264 was selected for
        testing. The transactions in the sample were reviewed for authorization, approval, correct
        General Services Administration (GSA)/Meals and Incidental Expenses (M&IE) rates, airfare
        class, supporting receipts, mathematical accuracy and allowability. No exceptions were found.
    6. Subcontracts
        The subcontracts sample universe consisted of 38,333 transactions totaling $534,381,103. Using
        statistical sampling, a sample of 60 subcontract transactions with costs of $35,061,425 was
        selected for testing. Our testing entailed agreeing costs from the general ledger to the supporting
        invoices and examining the subcontract agreements to ensure the invoices and the scope of
        services were in accordance with the agreement. We noted no exceptions in our testing of UT-
        Battelle's FY 2012 subcontract costs.

        We identified subcontractor costs that are considered unresolved because audits of those
        subcontractor’s final indirect cost rates have not yet occurred. Appendix B - Summary of
        Subcontractor Audit Status - Flexibly-Priced Subcontracts presents the details of cost-based
        subcontracts, for which audited indirect rates are needed, in order for UT-Battelle to receive final
        billings. As shown in Appendix B, $45,248,484 of cost-based subcontract costs are included in
        UT-Battelle's 2012 SCIC for which final indirect rates are not yet settled. As such, we consider
        these costs to be unresolved.

When the sample items noted above that were recorded in the incorrect period from the Allowances, Non-
Procurement and Procurement samples are evaluated on an aggregated basis, the misclassification
between years is small. Costs of $764,398 were reported in FY 2012, rather than other fiscal years
($525,869 in FY 2011 and $238,529 in FY 2013) and $303 of FY 2012 costs were recorded in FY 2011.
The misclassified FY 2012 costs are approximately 0.05 percent of total reported FY 2012 incurred costs,
and therefore do not materially misstate the FY 2012 incurred costs. In addition, the overhead associated
with the costs recorded in the incorrect year was not significant. We noted that three items, which include
FY 2013 costs, are the types of costs that are paid annually, and would have been considered in
compliance with UT-Battelle’s Internal Operating Procedure for Prepayments, implemented in May 2012,
although one of the transactions in our sample which included FY 2013 costs was dated prior to May
2012. The recording of costs in the incorrect year did not have an effect on overall cost allowability.




                                                                                                     Page 9
                                                                                         Attachment 1 (continued)


The population sample sizes and amounts are summarized in the following table:
Table 2 – Population and Sample Sizes for FY 2012 Testing


     Expense Type         Universe Value     Eliminations       Population     Population        Sample     Sample
                               ($)               ($)               Size        Amount ($)         Size     Amount ($)

Statistical Samples

Labor                        $421,020,570           $4,105            1,211     $421,016,465          50      $166,339

Allowances                     14,388,285            1,866            8,394        14,386,419         54       992,096

           Relocation -
                                                                       207    (included above)        29       230,520
          Supplemental

    Layoff Allowances -
                                                                       274    (included above)        10       377,360
          Supplemental

Procurement                   145,425,818                   2       151,577       145,425,816         40     19,712,258

Non-Procurement                66,620,378        2,883,327           43,804        63,737,051         52     36,471,565

Travel                         26,193,305         (97,619)           22,726        26,290,924         73      1,501,264

Subcontracts                  544,585,729       10,204,626           38,333       534,381,103         60     35,061,425

Total                        1,218,234,085     $12,996,307          266,526    $1,205,237,778        368    $94,512,827

Costs Tested Using
Alternative
                              369,026,427
Procedures (See
Table 3)

Reconciling Items*             55,060,473

Costs per Statement
of Costs Incurred          $1,532,200,040
and Claimed




*      Our samples were selected from the trial balance detail of cost elements, excluding source cost
       already included as a first occurrence in other cost element detail. The reconciling items not reported
       on the SCIC include cost of work performed between DOE entities, miscellaneous cash bill work, and
       other not included in the Financial Plan and the DOE accounting system, as well as small timing
       differences in reporting Work for Others (WFO) overruns.




                                                                                                           Page 10
                                                                                Attachment 1 (continued)


The cost elements that were not tested statistically were tested using alternative procedures. The testing
results, by cost element, for the period October 1, 2011 through September 30, 2012, for the cost elements
tested using alternative procedures are presented below.
    1. Government Transfers
        The government transfers universe consisted of costs totaling $144,023,409. A judgmental
        sample of 26 government transfers was selected for testing. For each sample items, the
        supporting documentation was reviewed to determine whether the government transfer payment
        was an actual transfer of costs incurred by an operational component of DOE or another
        governmental entity for items or effort provided on behalf of UT-Battelle and whether such
        payments or related accruals are properly recorded. An exception was noted for one item. A
        commercial vendor payment was improperly coded as a government transfer payment. Finding
        No. OIG-2013-10-06 discusses this matter.
    2. Change in Vacation Accrual
        The method which UT-Battelle uses to calculate its estimated annual vacation liability was
        reviewed. In addition, we reviewed the significant periodic accounting entries related to vacation
        costs to develop an understanding of how the vacation liability is reduced and how the monthly
        allocation is adjusted for vacation taken versus vacation earned. We noted that UT-Battelle's
        process for calculating its estimated annual vacation liability appeared reasonable.
    3. Fringe
        A trend analysis of fringe costs as a percentage of direct labor was performed to determine the
        reasonableness of the September 30, 2012 balances. Based on the analysis fringe costs appeared
        reasonably stated. In addition, a judgmental sample of five fringe organizational burden
        transactions were selected for testing. We verified that the payment was properly approved and
        supported, costs were allowable per the contract, the costs complied with contract ceilings and
        limitations, and the employee was a real employee.
    4. Award Fee
        A review of the calculation of UT-Battelle's FY 2012 management fee was performed to
        determine if the management fee was properly supported and consistent with the operating
        contract. The UT-Battelle management fee appeared to be properly supported and consistent with
        the operating contract and the accrual transactions were accurately calculated and properly
        recorded.
        A review of the FY 2012 award fee accrual was also performed. A judgmental sample of five
        individual entries was selected for testing. The transactions were reviewed to determine if the
        award fee accruals were properly supported and consistent with the operating contract. The UT-
        Battelle award fee accruals appeared to be properly supported, and the related accruals were
        accurately calculated and properly recorded.




                                                                                                  Page 11
                                                                                    Attachment 1 (continued)


The costs tested using alternative procedures are summarized in the following table:
Table 3 – FY 2012 Costs Tested Using Alternative Procedures
         Expense Type            Universe Value ($)

Government Transfers                      $144,023,409

Change in Vacation Accrual                 (29,806,308)

Fringe                                     243,892,536

Award Fee                                   10,916,790

Total                                     $369,026,427




In addition to the statistical sample testing and alternate procedures performed above over the cost
elements, non-statistical samples of five transactions each for the following types of costs were tested for
the period October 1, 2011 through September 30, 2012:
         -   Dues, Memberships and Subscriptions
         -   Public Relations and Advertising
         -   Employee Welfare and Morale
         -   Professional and Consultant Services
         -   Lobbying
         -   Costs Related to Legal Proceedings
These costs were reviewed to determine if the costs claimed were incurred, allowable, allocable and
reasonable. We noted that for one lobbying cost transaction selected for testing, UT-Battelle based the
calculation of the lobbying activities on an historical percentage, rather than the amount on the invoice.
Finding No. OIG-2013-10-07 discusses the unallowable lobbying costs claimed of $10.30.
As part of our audit procedures, we reviewed the prior audit history including prior OIG audit reports, and
internal/external audit reports, and other relevant audit history to identify findings related to the
allowability of costs. Appendix D – Summary of Prior Year Findings notes the prior year audit findings
that were open as of September 4, 2013.
We also performed a limited review of UT-Battelle's indirect cost model. We noted that prior internal
reviews identified potential noncompliance concerns related to Cost Accounting Standards (CAS) 410
Allocation of Business Unit General & Administrative (G&A) Expenses to Final Cost Objectives and CAS
418 Allocation of Direct and Indirect Costs. Appendix C - Summary of Indirect Costs Included in the FY
2012 SCIC identifies the amount of indirect costs included in the total costs reported in the FY 2012
SCIC. While not considered a finding, we noted that UT-Battelle could improve its documented rationale
for excluding certain costs from the allocation base of its indirect rate calculations and for limiting certain
costs in the allocation bases, as discussed in Appendix A – Observations.

                                                * * * * *




                                                                                                      Page 12
                                                                               Attachment 1 (continued)


Our audit results are summarized in the following Appendices
    •   Appendix A – Observations
    •   Appendix B – Summary of Subcontractor Audit Status - Flexibly-Priced Subcontracts
    •   Appendix C – Summary of Indirect Costs Included in the FY 2012 SCIC
    •   Appendix D – Summary of Prior Year Open Allowable Cost Findings

Findings, Recommendations, and Auditee Responses

Our performance audit resulted in six findings, presented below. We discussed the results of the audit
with UT-Battelle in an exit conference held on February 19, 2014.


Finding No. OIG-2013-10-01 Control Weaknesses – Payroll Related

Background:
Recipients of federal funds are responsible for accounting for costs appropriately and need to be able to
demonstrate that costs claimed have been incurred, are allocable to the contract, are reasonable, and
comply with applicable cost principles.

Criteria:

FAR 42.302, Contract Administration Functions, states:

(a) (12) ... The contractor's accounting system should be adequate during the entire period of contract
           performance. The adequacy of the contractor’s accounting system and its associated internal
           control system, as well as contractor compliance with the Cost Accounting Standards (CAS),
           affect the quality and validity of the contractor data upon which the Government must rely for
           its management oversight of the contractor and contract performance.

Prime Contract DE-AC05-00OR22725, Modification No. 341, Section I
I .9 52.203-13, Contractor Code of Business Ethics and Conduct (DEC 2008) (c)(2), states:

        (i) The Contractor's internal control system shall—
             (A) Establish standards and procedures to facilitate timely discovery of improper conduct in
                 connection with Government contracts; and,
             (B) Ensure corrective measures are promptly instituted and carried out.

DEAR 970.0370-1, Policy, states:

    (a) Management and operating contractors shall develop and maintain systems of management and
        quality control to discourage waste, fraud and abuse; and to ensure that components, products,
        and services that are provided to the Department of Energy (DOE) satisfy the contractor's
        obligations under the contract.

    (b) As a part of the required overall management structure, the contractor must maintain management
        control systems which, in compliance with the requirements of the clause at 970.5203-1—




                                                                                                 Page 13
                                                                               Attachment 1 (continued)


DEAR 970.5203-1, states:

 (a)(1) The Contractor shall be responsible for maintaining, as an integral part of its organization,
        effective systems of management controls for both administrative and programmatic functions.
        Management controls comprise the plan of organization, methods, and procedures adopted
        including consideration of outsourcing of functions by management to reasonably ensure that:
        the mission and functions assigned to the Contractor are properly executed; efficient and
        effective operations are promoted; resources are safeguarded against waste, loss,
        mismanagement, unauthorized use, or misappropriation; all encumbrances and costs that are
        incurred under the contract and fees that are earned are in compliance with applicable clauses
        and other current terms, conditions, and intended purposes; all collections accruing to the
        Contractor in connection with the work under this contract, expenditures, and all other
        transactions and assets are properly recorded, managed, and reported; and financial, statistical,
        and other reports necessary to maintain accountability and managerial control are accurate,
        reliable, and timely.

Condition:

   1. As part of our detailed test work, we selected statistical samples of Payroll Allowances, and
      reviewed the supporting documentation for each transaction to determine if the costs claimed
      were incurred, allowable, allocable, and reasonable, in accordance with the contract and
      applicable Government acquisition regulations. We noted that for one item in the sample, an
      employee was over-reimbursed by $35,035 for relocation costs. The employee reported the over-
      reimbursement and refunded the $35,035.

   2. As part of our detailed test work, we selected statistical samples of relocation allowances, and
      reviewed the supporting documentation for each transaction to determine if the costs claimed
      were incurred, allowable, allocable, and reasonable, in accordance with the contract and
      applicable Government acquisition regulations. We noted that for one item in the relocation
      allowances sample, a duplicate payment was made to a vendor for relocation costs for one
      employee. UT-Battelle discovered the duplicate payment through internal review processes. In
      October 2012 (FY 2013) a correcting entry was made; however, due to the fact the correcting
      entry was not made until FY 2013, FY 2012 costs were overstated by $2,261.

   3. As part of our detailed test work over Payroll Related costs, we selected a non-statistical sample
      of Fringe Organizational Burden Costs, and reviewed the supporting documentation for each
      transaction to determine whether the payment was properly approved and supported, the costs
      were allowable per the contract, the costs comply with contract ceilings and limitations and the
      employee was a real employee who worked on the contract effort. For one of the items in the
      sample, which was a Significant Event Award (SEA), we noted that there was no formal
      documented approval for the amount paid. The amount approved for payment is entered on a
      spreadsheet by a UT-Battelle employee during the SEA Committee meeting. The same employee
      who documents the amount to be paid on the spreadsheet during the meeting enters the awards for
      payment. The individual award amounts which were entered for payment were not reviewed by
      an SEA Committee member to verify that the amounts paid to the employees were the approved
      amounts. In addition, insufficient documentation was available to determine whether the amount
      paid to the employee in our sample was the amount approved by the SEA Committee.




                                                                                                Page 14
                                                                              Attachment 1 (continued)


Cause:

    1. For the employee that was over-reimbursed by $35,035 for relocation costs, the individual who
       recorded the payment incorrectly calculated and entered the amount. The amount entered for
       payment was not reconciled to the receipts and supporting documentation prior to payment.

    2. For the duplicate payment of $2,261, the vendor invoice was entered twice due to an oversight on
       the part of the employee submitting the invoice for payment. The payment was entered into the
       Vendor Reimbursement System which is not programmed to prevent the entry of duplicate
       invoices. UT-Battelle utilizes a duplicate payment report to identify potential duplicate
       payments. At the time the payment was made, the duplicate report was run manually in SAP.
       The employee responsible for reviewing the report overlooked the duplicate.

    3. The duties for recording and reviewing the SEA amounts to be paid were not properly segregated.
       In addition, no formal documentation of the approval of the award amounts by the SEA
       documentation was retained.

Effect:

    1. An employee was overpaid by $35,035 for reimbursement of relocation costs. The employee
       notified UT-Battelle of the overpayment and refunded the excess payment by check. Although
       the error had no overall impact on the FY 2012 costs reported, the overpayment indicates the
       controls related to the review of relocation payments should be improved.

    2. Processing of duplicate payments will cause the SCIC to be misstated. The duplicate payment of
       relocation costs noted in our sample was corrected in FY 2013. Due to the fact the duplicate
       payment was not corrected until FY 2013, the FY 2012 SCIC was overstated by $2,261.

    3. The control procedures in place at the time of the payment of the SEA sample item present the
       opportunity for an individual SEA to be paid for a dollar value which is different from the award
       amount approved by the SEA Committee. The lack of proper segregation of duties for this
       process and the lack of formal documented approvals for the award amounts increase the risk of
       noncompliance with DOE requirements to ensure transactions and assets are properly recorded,
       managed and reported.

Recommendations:

We recommend that the Manager, Oak Ridge National Laboratory Site Office, direct the Contracting
Officer to ensure that UT-Battelle:

    1. Reconciles the amount entered for payment by Payroll to the amount submitted by Accounts
       Payable;

    2. Prevents the processing of duplicate relocation payments and processes relocation payments
       correctly and cancels them timely; and,

    3. Approves and supports SEA payments in accordance with contract requirements.




                                                                                                Page 15
                                                                               Attachment 1 (continued)


Management Response:

    1. Concur: The Contracting Officer will issue correspondence to the contractor requiring the
       reconciliation of amounts entered for payment by payroll to the amount submitted by accounts
       payable.

        Action completion date: 11/30/2013

     2. Concur: The Contracting Officer will issue correspondence to the contractor requiring them to
        provide reasonable assurance that necessary steps are taken to prevent processing duplicate
        relocation payments and to process relocation payments correctly and timely.

       Action completion date: 11/30/2013
    3. Concur: The Contracting Officer will issue correspondence to the contractor requiring them to
       provide reasonable assurance that SEA payments are approved and supported in accordance with
       contract requirements.

        Action completion date: 11/30/2013


Finding No. OIG-2013-10-02 Relocation Allowances – Unallowable Costs and Credits Not Taken

Background:

Government contractors are responsible for accounting for costs appropriately and need to be able to
demonstrate that costs claimed have been incurred, are allowable, allocable, and reasonable in accordance
with the contract and applicable government acquisition regulations.

Criteria:

Per the Prime Contract, DE-AC05-00OR22725, Modification No. 341, Section J, Appendix A,
§6, Travel and Relocation, states:

    a. The Contractor may pay transportation, lodging, meals, incidental, relocation, and other expenses
       for employees or other persons required to travel or move in conjunction with the performance of
       work under this contract. Allowable costs for travel and relocation include costs according to
       applicable provisions of the FAR and DEAR, the Federal Travel Regulations, and the Internal
       Revenue Service auto allowance. The Contractor may deviate in specific instances where it is
       determined to be economically advantageous to the DOE and to the extent such deviations
       conform to pertinent regulations and law. The Contractor will maintain records based on its
       determinations to deviate in specific instances sufficient for audit review.

FAR 31.205-35, Relocation Costs, states the following:
   (a) Relocation costs are costs incident to the permanent change of assigned work location (for a
       period of 12 months or more) of an existing employee or upon recruitment of a new employee.
       The following types of relocation costs are allowable as noted, subject to the limitations in
       paragraphs (b) and (f) of this subsection:
       (1) Costs of travel of the employee and members of the employee's immediate family (see
           31.205-46) and transportation of the household and personal effects to the new location.




                                                                                                 Page 16
                                                                                  Attachment 1 (continued)


       (2) Costs of finding a new home, such as advance trips by the employee or the spouse, or both, to
           locate living quarters, and temporary lodging during the transition period for the employee
           and members of the employee's immediate family.
       (3) Closing costs incident to the disposition of the actual residence owned by the employee when
           notified of the transfer (e.g., brokerage fees, legal fees, appraisal fees, points, and finance
           charges), except that these costs, when added to the costs described in paragraph (a)(4) of this
           subsection, shall not exceed 14 percent of the sales price of the property sold.

Per the guidance in FAR 31.205-46(a):

   "(1) Costs incurred by contractor personnel on official company business are allowable, subject to the
       limitations contained in this subsection. Costs for transportation may be based on mileage rates,
       actual costs incurred, or on a combination thereof, provided the method used results in a
       reasonable charge. Costs for lodging, meals, and incidental expenses may be based on per diem,
       actual expenses, or a combination thereof, provided the method used results in a reasonable
       charge.
   (2) Except as provided in paragraph (a)(3) of this subsection, costs incurred for lodging, meals, and
       incidental expenses (as defined in the regulations cited in (a)(2)(i) through (iii) of this paragraph)
       shall be considered to be reasonable and allowable only to the extent that they do not exceed on a
       daily basis the maximum per diem rates in effect at the time of travel as set forth in the—
       (i) Federal Travel Regulations, prescribed by the General Services Administration…
       (ii) Joint Travel Regulation, Volume 2, DoD Civilian Personnel, Appendix A, prescribed by the
            Department of Defense, for travel in Alaska, Hawaii, and outlying areas of the United
            States…; or
       (iii) Standardized Regulations (Government Civilians, Foreign Areas), Section 925, "Maximum
            Travel Per Diem Allowances for Foreign Areas," prescribed by the Department of State, for
            travel in areas not covered in (a)(2)(i) and (ii) of this paragraph."

Per Diem Allowances

The Federal Travel Regulations Chapter 302, Relocation Allowances, Part 302-4 Allowances for
Subsistence and Transportation, which addresses allowable costs for permanent change of station (PCS)
travel, states the following:

§302-4.200 What per diem rate will I receive for en route relocation travel within CONUS?
Your per diem for en route relocation travel between your old and new official stations will be at the
standard CONUS rate (see applicable FTR Per Diem Bulletins available on the Internet at
http://www.gsa.gov/perdiem). You will be reimbursed in accordance with §301-11.100 through §301-
11.102 of this title.




                                                                                                    Page 17
                                                                                               Attachment 1 (continued)


§301-11.101 What allowance will I be paid for M&IE?
   (a) Except as provided in paragraph (b) of this section, your allowance is as shown in the following
       table:
                             When travel is                           Your allowance is

                             More than 12 but less than 24 hours      75 percent of the
                                                                      applicable M&IE
                                                                      rate for each calendar
                                                                      day you are in a
                                                                      travel status.
                             24 hours or        The day of            75 percent of the
                             more, on           departure             applicable M&IE
                                                                      rate.
                                                Full days of travel   100 percent of the
                                                                      applicable M&IE
                                                                      rate.
                                                The last day of       75 percent of the
                                                travel                applicable M&IE
                                                                      rate.


§302-4.201 How are my authorized en route travel days and per diem determined for relocation travel?
Your authorized en route travel days and per diem are determined as follows: The number of authorized
travel days is the actual number of days used to complete the trip, but not to exceed an amount based on a
minimum driving distance per day determined to be reasonable by your agency. The minimum driving
distance shall be not less than an average of 300 miles per calendar day. An exception to the daily
minimum driving distance may be made when delay is beyond control of the employee, such as when it
results from acts of God or restrictions by Government officials; when the employee is physically
handicapped; or for other reasons acceptable to the agency.

Temporary Lodging

The Federal Travel Regulations address the allowable costs for temporary lodging during the transition
period for relocating employees. Based on the guidance in §302-6.12 for temporary quarters subsistence
expenses (TQSE), an agency may reimburse the employee under the actual expense method unless the
agency permits the "lump sum" reimbursements method as an alternative.

The Federal Travel Regulations states in §302-6.100, an agency will pay the actual TQSE incurred by an
employee, provided the expenses are reasonable and do not exceed the maximum allowable amount. The
"maximum allowable amount" is the "maximum daily amount" multiplied by the number of days the
employee actually incurs TQSE not to exceed the number of days authorized, taking into account that the
rates change after 30 days in temporary quarters…

Credits

The FAR states the following regarding the treatment of credits, which include credits for relocation
allowances:
§31.201-1, Composition of Total Cost, states:
          (a) The total cost, including standard costs properly adjusted for applicable variances, of
              a contract is the sum of the direct and indirect costs allocable to the contract, incurred
              or to be incurred, plus any allocable cost of money pursuant to 31.205-10, less any



                                                                                                               Page 18
                                                                                 Attachment 1 (continued)


        allocable credits. In ascertaining what constitutes a cost, any generally accepted method
            of determining or estimating costs that is equitable and is consistently applied may be
            used.
§31.201-5, Credits, states:
        The applicable portion of any income, rebate, allowance, or other credit relating to any
        allowable cost and received by or accruing to the contractor shall be credited to the
        Government either as a cost reduction or by cash refund. See 31.205-6(j)(3) for rules
        governing refund or credit to the Government associated with pension adjustments and
        asset reversions.
DEAR Subchapter I, Agency Supplementary Regulations 970, DOE Management and Operating
Contracts §970.5232-2, Payments and Advances, states:

        (e) Financial Settlement. The Government shall promptly pay to the Contractor the
            unpaid balance of allowable costs (or other items specifically approved in writing by
            the Contracting Officer) and fee upon termination of the work, expiration of the term
            of the contract, or completion of the work and its acceptance by the Government
            after:

             (2) The furnishing by the Contractor of:
                 (i) An assignment of the Contractor's rights to any refunds, rebates, allowances,
                     accounts receivable, collections accruing to the Contractor in connection with the
                     work under this contract, or other credits applicable to allowable costs under the
                     contract…

Condition:

UT-Battelle provides assistance to new employees when they are required to relocate as a condition of
their new employment. As part of this relocation assistance, the new employee is reimbursed for
relocation costs, which include travel costs for the employee and the employee’s immediate family
members and temporary quarters subsistence expenses.

As part of detailed test work related to Payroll, statistical samples of allowances and a supplemental
sample of relocation allowances were selected, and the supporting documentation for each transaction
was reviewed to determine if the costs claimed were incurred, allowable, allocable, and reasonable in
accordance with the contract and applicable government acquisition regulations.

For two of the relocation allowance transactions in our statistical samples (one item from the
supplemental relocation sample and one item from the payroll allowances sample), unallowable costs
were claimed, as follows:

   1) We noted one expense item in our sample where an employee was reimbursed for temporary
      quarters subsistence expenses using the actual expense method for an amount in excess of actual
      costs. As shown in the table below, the employee was reimbursed for temporary lodging on a
      pro-rated basis for the period 3/13/12 – 4/17/12 for a total of $1,608.00. The actual charges based
      on the documentation from the temporary housing provider include pro-rated rent for the period
      3/13/12 – 3/30/12 of $778.00, and rent and fees of $1,340.00 for the period 4/1/12 – 4/30/12, for a
      total of $1537.33. Therefore, the employee was reimbursed $70.67 more than the actual costs
      incurred.



                                                                                                      Page 19
                                                                                  Attachment 1 (continued)


                                         3/13/12 - 3/31/12     4/1/12 - 4/17/12     Total
             Reimbursed by ORNL               848.67                759.33         $1,608.00
             Calculated by KPMG               778.00                759.33          1,537.33
                                                             Difference              $70.67

    2) We noted that for one allowance transaction selected for detailed testing, UT-Battelle did not
       properly include a homeowners association (HOA) statement fee credit in the amount of $47.50
       as an offset in determining total reimbursable home selling costs for an employee. In addition,
       $34.50 of per diem was paid to the employee for a one day trip to close on the sale of the
       employee’s former residence. Lodging was not required for the trip. The employee traveled
       261.7 miles roundtrip, and the estimated driving time was 4 hours 22 minutes. The trip does not
       appear to meet the FTR requirements for the per diem reimbursement to be allowable. In total,
       the employee was overpaid by $82.00 for relocation expenses.

Cause:

    1) For the reimbursement of expenses in excess of actual costs for temporary lodging, the
       reimbursement amount was improperly calculated. The employee was reimbursed for temporary
       quarters subsistence expenses based on UT-Battelle's calculation of the temporary lodging based
       on the number of days between March 13 and April 17, 2012, rather than on the actual costs
       incurred. The receipt from the lodging provider did not include charges for March 31, 2012,
       which contributed to the difference. The charges were reviewed and approved; however, the error
       was not discovered.

    2) For the credit which was improperly excluded from the calculation of the total reimbursable home
       selling costs, UT-Battelle's review of the submitted home selling cost support did not adequately
       identify the available credit. However, we noted that other applicable credits were properly
       included in making the final determination of the home selling costs. For $34.50 of unallowable
       per diem, which was reimbursed to the employee, UT-Battelle's review of the Relocation Expense
       Report submitted by the employee did not identify the unallowable costs.

Effect:

Employees were over-paid for relocation expenses and accordingly, UT-Battelle overstated total claimed
costs in the amount of $152.67 for the overpayments to employees in the amount of $70.67 and $82.00.
When these errors are projected to the population, we estimate with 90 percent confidence that relocation
costs of $2,226 likely exists within the total of claimed relocation costs for FY 2012.

Recommendations:

We recommend that the Manager, Oak Ridge National Laboratory Site Office, direct the Contracting
Officer to:

    1. Ensure that UT-Battelle reimburses only allowable and incurred relocation costs and properly
       adjusts for any rebate, allowance, or other credit; and,

    2. Make a determination regarding the allowability of the statistically projected unallowable
       relocation allowance costs of $2,226 and recover those amounts determined to be unallowable.



                                                                                                  Page 20
                                                                               Attachment 1 (continued)


Management Response:

    1. Concur: The Contracting Officer will issue correspondence to the contractor requiring stringent
       oversight and compliance with practices related to processing relocation costs and requests.

        Action completion date: 11/30/2014


    2. Concur: The Contracting Officer will determine the allowability of costs.

        Action completion date: 1/17/2014


Finding No. OIG-2013-10-03 Classification of Meal Allowances

Background:

Government contractors are responsible for accounting for costs appropriately and need to be able to
demonstrate that costs claimed have been incurred and are allowable, allocable, and reasonable in
accordance with the contract and applicable government acquisition regulations.

Criteria:
FAR 31.201-2, Determining Allowability, states:
        (a) A cost is allowable only when the cost complies with all of the following
            requirements:
            (1) Reasonableness.
            (2) Allocability.
            (3) Standards promulgated by the Cost Accounting Standards (CAS) Board, if
                applicable, otherwise, generally accepted accounting principles and practices
                appropriate to the circumstances.
            (4) Terms of the contract.
            (5) Any limitations set forth in this subpart.

        (b) Certain cost principles in this subpart incorporate the measurement, assignment, and
            allocability rules of selected CAS and limit the allowability of costs to the amounts
            determined using the criteria in those selected standards. Only those CAS or portions
            of standards specifically made applicable by the cost principles in this subpart are
            mandatory unless the contract is CAS-covered (see Part 30). Business units that are
            not otherwise subject to these standards under a CAS clause are subject to the
            selected standards only for the purpose of determining allowability of costs on
            Government contracts. Including the selected standards in the cost principles does
            not subject the business unit to any other CAS rules and regulations. The
            applicability of the CAS rules and regulations is determined by the CAS clause, if
            any, in the contract and the requirements of the standards themselves.




                                                                                                    Page 21
                                                                                Attachment 1 (continued)


        (c) When contractor accounting practices are inconsistent with this Subpart 31.2, costs
            resulting from such inconsistent practices in excess of the amount that would have
            resulted from using practices consistent with this subpart are unallowable.
        (d) A contractor is responsible for accounting for costs appropriately and for maintaining
            records, including supporting documentation, adequate to demonstrate that costs
            claimed have been incurred, are allocable to the contract, and comply with applicable
            cost principles in this subpart and agency supplements. The contracting officer may
            disallow all or part of a claimed cost that is inadequately supported.

29 CFR Part 778 Subpart B §778.107, General Standard for Overtime Pay, states:

The general overtime pay standard in section 7(a) requires that overtime must be compensated at a rate
not less than one and one-half times the regular rate at which the employee is actually employed. The
regular rate of pay at which the employee is employed may in no event be less than the statutory
minimum...If the employee's regular rate of pay is higher than the statutory minimum, his overtime
compensation must be computed at a rate not less than one and one-half times such higher rate.

29 CFR Part 778 Subpart B § 778.108, The "Regular Rate," states:

The "regular rate" of pay under the Act cannot be left to a declaration by the parties as to what is to be
treated as the regular rate for an employee; it must be drawn from what happens under the employment
contract...Section 7(e) of the Act requires inclusion in the "regular rate" of "all remuneration for
employment paid to, or on behalf of, the employee" except payments specifically excluded by paragraphs
(1) through (7) of that subsection.

29 CFR Part 778 Subpart B § 778.109, The Regular Rate is an Hourly Rate, states:

The "regular rate" under the Act is a rate per hour…The regular hourly rate of pay of an employee is
determined by dividing his total remuneration for employment (except statutory exclusions) in any
workweek by the total number of hours actually worked by him in that workweek for which such
compensation was paid.

29 CFR Part 778 Subpart B § 778.110, Hourly Rate Employee, states:

        (a) Earnings at hourly rate exclusively. If the employee is employed solely on the basis
            of a single hourly rate, the hourly rate is the "regular rate." For overtime hours of
            work the employee must be paid, in addition to the straight time hourly earnings, a
            sum determined by multiplying one-half the hourly rate by the number of hours
            worked in excess of 40 in the week.

29 CFR Part 778 Subpart C § 778.200, Provisions Governing Inclusion, Exclusion, and Crediting of
Particular Payments, states:

        (a) Section 7(e). This subsection of the Act provides as follows:

            As used in this section the "regular rate" at which an employee is employed shall be
            deemed to include all remuneration for employment paid to, or on behalf of, the
            employee, but shall not be deemed to include:


                                                                                                     Page 22
                                                                                 Attachment 1 (continued)


              (2) Payments made for occasional periods when no work is performed due to
                 vacation, holiday, illness, failure of the employer to provide sufficient work, or
                 other similar cause; reasonable payments for traveling expenses, or other
                 expenses, incurred by an employee in the furtherance of his employer's interests
                 and properly reimbursable by the employer; and, other similar payments to an
                 employee which are not made as compensation for his hours of employment
                 [discussed in §§ 778.216 through 778.224].
             [See also: The Fair Labor Standards Act (FLSA) of 1938, as amended 29 U.S.C.
             201, et seq. (e)(2)]

29 CFR Part 778 Subpart C § 778.217, Reimbursement for Expenses, states:

        (a) General rule. Where an employee incurs expenses on his employer's behalf or where
            he is required to expend sums solely by reason of action taken for the convenience of
            his employer, section 7(e)(2) is applicable to reimbursement for such expenses.
            Payments made by the employer to cover such expenses are not included in the
            employee's regular rate (if the amount of the reimbursement reasonably approximates
            the expenses incurred). Such payment is not compensation for services rendered by
            the employees during any hours worked in the workweek.

        (b) Illustrations. Payment by way of reimbursement for the following types of expenses
            will not be regarded as part of the employee's regular rate:
            (4) "Supper money," a reasonable amount given to an employee, who ordinarily
                 works the day shift and can ordinarily return home for supper, to cover the cost
                 of supper when he is requested by his employer to continue work during the
                 evening hours.

        (c) Payments excluding expenses. It should be noted that only the actual or reasonably
            approximate amount of the expense is excludable from the regular rate. If the amount
            paid as "reimbursement" is disproportionately large, the excess amount will be
            included in the regular rate.

Condition:

Payments to an employee that are not made as compensation for his hours of employment (e.g., "supper
money") should not be included in the employee's regular rate (if the amount of the reimbursement
reasonably approximates the expenses incurred). Such payment is not compensation for services rendered
by the employees during any hours worked in the workweek.

As part of our detailed test work, we selected a statistical sample of labor, and reviewed the supporting
documentation for each transaction to determine if the costs claimed were incurred, allowable, allocable,
and reasonable in accordance with the contract and applicable Government acquisition regulations.

We noted that for one labor transaction selected for detailed testing, UT-Battelle improperly included the
total "meal allowance" amount in the calculation of the evaluated wage rate (i.e., "regular rate"). The
regular rate is also the base used to determine the 50 percent evaluated wage rate (i.e., "overtime rate");
therefore, this resulted in an overstatement of $0.26 per hour in the evaluated wage rate (i.e., "regular
rate") and $0.13 per hour in the 50 percent evaluated wage rate (i.e., "overtime rate").




                                                                                                      Page 23
                                                                                Attachment 1 (continued)


Cause:

UT-Battelle relies on U.S. Office of Personnel Management guidance "Fact Sheet: How to Compute
FLSA Overtime Pay" to support inclusion of meal allowances in the evaluated wage rate (i.e., "regular
rate").

Specifically, it directs "Include any applicable special rate supplement or locality payment in the "total
remuneration" and "straight time rate of pay" when computing overtime pay under the FLSA. Compute
the "hourly regular rate of pay" by dividing the "total remuneration" paid to an employee in the workweek
by the number of hours in the workweek for which such compensation is paid."

However, UT-Battelle's characterization of the meal allowance as a "special rate supplement" and
inclusion as a component of the evaluated wage rate (i.e., "regular rate") is not consistent with the
underlying statutory requirements including FLSA and applicable provisions of 29 CFR Part 778.

Effect:

UT-Battelle overpaid the employee in our sample by $1.56. As a result, UT-Battelle also overpaid $0.12
for the employer portion of payroll taxes ($0.02 for Medicare and $0.10 for Social Security).

Upon further inquiry of the Auditee, we determined that meal allowances have been included in the
calculation of the regular and overtime wage rates in FY 2012 and prior years, which overstated those
labor rates. The date that this methodology was adopted is unknown.

At our request, UT-Battelle reviewed labor transactions for FY 2012 and estimated that claimed costs
were overstated in total by $14,146 for FY 2012. We reviewed the estimate prepared by UT-Battelle and
determined that it appeared reasonable. In addition, the contracting officer has reviewed the
information and did not recommend adjustments be made prior to FY 12.

Recommendations:

We recommend that the Manager, Oak Ridge National Laboratory Site Office, direct the Contracting
Officer to:

    1. Ensure that UT-Battelle determine evaluated wage rates (i.e., "regular rate") in accordance with
       applicable requirements;

    2. Make a determination regarding the allowability of the estimated $14,146 in overstated claimed
       costs and recover those amounts determined to be unallowable; and,

Management Response:

    1. Concur: The Contracting Officer will issue correspondence requiring the contractor to review its
       evaluated wage rate computation and implement any necessary changes.

          Action completion date: Complete review of evaluated wage rate computation by June 30, 2014.




                                                                                                  Page 24
                                                                                 Attachment 1 (continued)


    2. Concur: In reviewing this recommendation, the Contracting Officer has determined that the
       estimated claimed costs of $14,146 are allowable. The guidance set forth in DOE Acquisition
       Letter AL-2012-03 entitled "The Allowability of Incurred Costs Due to Contractor Errors"
       addresses the potential for errors to occur, indicating that it would be unreasonable to operate "a
       zero error financial system." The guidance goes on to say that if an error occurs and the
       contractor "was maintaining financial systems that included reasonable controls to mitigate
       errors, the cost is generally allowable."

        Action completion date: 09/30/2013


Finding No. OIG-2013-10-04 Severance Payment

Background:

Government contractors are responsible for accounting for costs appropriately and need to be able to
demonstrate that costs claimed have been incurred and are allowable, allocable, and reasonable in
accordance with the contract and applicable government acquisition regulations.

Criteria:

FAR Subpart 31.2, Contracts with Commercial Organizations, Section 31.205-6, Compensation for
Personal Services (g) Severance Pay, states:

        (1) Severance pay is a payment in addition to regular salaries and wages by contractors
            to workers whose employment is being involuntarily terminated. Payments for early
            retirement incentive plans are covered in paragraph (j)(6) of this subsection.

        (2) Severance pay is allowable only to the extent that, in each case, it is required by—

             (i) Law;
             (ii) Employer-employee agreement;
             (iii) Established policy that constitutes, in effect, an implied agreement on the
                   contractor's part; or
             (iv) Circumstances of the particular employment.


DE-AC05-00OR22725 Modification No. 341 Section J, Appendix A, §3.3.1 Severance Pay Benefit,
states:

      a. General

            Severance pay is payable to an employee who has three months or more of Company
            Service Credit and who is laid off on account of lack of work— unless the layoff is
            caused by a temporary suspension of work or the employee was hired for intermittent
            or casual work or as a temporary worker for a limited time or for a specific project.

            If the Contractor reemploys an employee after having been paid a severance payment,
            Company Service Credit for any subsequent severance payment consideration shall
            start from the date of such reemployment. If any individuals are reemployed by the


                                                                                                    Page 25
                                                                                Attachment 1 (continued)


         Contractor prior to the end of the period covered by the severance pay (e.g., received
         20 weeks severance pay, but reemployed after 15 weeks), the difference must be
         refunded.

         No severance pay is paid to employees who terminate their employment voluntarily,
         who are discharged, or who resign by Contractor request, except for:

         (1) Medical reasons (i.e., those terminated due to contractor determination of mental or
             physical inability to perform available work).

         (2) Voluntary Reduction in Force (VRIF) Programs: Situations wherein a reduction in
             force is necessary in an employee unit and an employee volunteers with Contractor
             consent to be laid off in the reduction in force in place of another person. All VRIF
             programs require prior DOE approval.

     b. Amount of Severance Pay

         Severance pay will be calculated on the basis of the employee's basic rate in effect at
         the time of layoff (including extended hours' pay, if any, but excluding all overtime
         premium or shift differential) and may be paid in accordance with the following
         schedules:

         (2) Salaried Employees

Company Service Credit                               Severance Pay
Under 3 months                                       No pay
3 months and under 1 year                            Same proportion of 1/4 month's pay as completed
                                                     months of service are of 12 months
1 year through 25 years of completed service         1 week of pay for every completed year of service.
                                                     Payment will be capped at 25 years of service

Condition:

UT-Battelle provides severance payments to employees who are laid off on account of lack of work, are
discharged, or resign due to medical reasons or due to VRIF Programs.

Severance pay is calculated on the basis of the employee's basic rate in effect at the time of layoff
(including extended hours' pay, if any, but excluding all overtime premium or shift differential).

Salaried Employees are paid severance in accordance with the following schedule:

Company Service Credit                               Severance Pay
Under 3 months                                       No pay
3 months and under 1 year                            Same proportion of 1/4 month's pay as completed
                                                     months of service are of 12 months
1 year through 25 years of completed service         1 week of pay for every completed year of service.
                                                     Payment will be capped at 25 years of service




2

                                                                                                     Page 26
                                                                                Attachment 1 (continued)


As part of our detailed test work, we selected a statistical sample of allowances, and reviewed the
supporting documentation for each transaction to determine if the costs claimed were incurred, allowable,
allocable, and reasonable in accordance with the contract and applicable Government acquisition
regulations.

We noted that for one selected transaction, UT-Battelle based the calculation of a severance payment on
the incorrect company service date. Accordingly, UT-Battelle improperly utilized 28 years of service in
the calculation, which indicated that 1,000 hours of severance pay was owed, and a total severance
payment of $62,050 was made. However, if the correct 18 years of service had been used, based on the
correct company service date, only 720 hours of severance pay was owed, and the actual severance
payment should have been only $44,676.

Cause:

UT-Battelle utilizes a formatted Microsoft Excel spreadsheet to calculate each severance payment. It
requires direct entry of specified inputs including company service date and the employee hourly rate, and
calculates total severance pay based on these inputs. The spreadsheet preparer mistakenly input the
incorrect company service date, resulting in the incorrect severance calculation, and subsequent internal
reviews failed to adequately identify and correct the error.

Effect:

The employee was overpaid by $17,374 in his severance amount. As a result, UT-Battelle also overpaid
$1,329.11 for the employer portion of payroll taxes ($251.92 for Medicare and $1,077.19 for Social
Security taxes) or a total of approximately 7.65 percent of the overpaid severance. UT-Battelle overstated
total claimed costs by $18,703.11. Upon further inquiry with UT-Battelle, the Auditee confirmed that the
employee was over-reimbursed. UT-Battelle subsequently reimbursed DOE for the overpayment from
corporate funds. We obtained supporting documentation of the refund noting $18,703.11 was reimbursed
from corporate funds to DOE on June 27, 2013. We expanded our review to additional severance
payments made in FY 2012. We tested an additional ten severance payments, and no exceptions were
noted.

When the $17,374 error in the severance amount is projected to the population of layoff allowance costs,
we estimate with 90 percent confidence that unallowable layoff allowance costs of $39,567 likely exist
within the total claimed layoff allowances for FY 2012. In addition, we estimate that payroll taxes of
approximately $3,027 relate to the projected unallowable severance, for a total projected unallowable
amount of $42,594.

Recommendations:

We recommend that the Manager, Oak Ridge National Laboratory Site Office, direct the Contracting
Officer to:

    1. Ensure that UT-Battelle calculates all severance payments utilizing the correct company service
       date; and,

    2. Make a determination regarding the statistically projected unallowable layoff allowance costs of
       $42,594, less the actual amount that has been reimbursed of $18,703, or $23,891, and recover
       those amounts determined to be unallowable.


2

                                                                                                 Page 27
                                                                                 Attachment 1 (continued)


Management Response:

    1. Concur: Controls have been implemented in the process to aid in calculating accurate payments
       as follows: (a) Alerts when Company Service Date (CSD) and Last Hire Date (LHD) are not the
       same alerting - a potential error; and (b) Calculated cells have been protected to prevent potential
       error. Contracting Officer will confirm that the contractor has implemented new controls in the
       process to aid in calculating accurate severance payments utilizing correct service dates.

           Action completed 7/11/2013
    2. Concur: A 100 percent review of all the remaining FY 2012 layoff allowances was conducted
       and all were found to be correct. Therefore, no additional unallowable costs were identified.
       Contracting officer will confirm that the contractor has performed a review of all remaining
       severance calculations and found all to be correct. If confirmed, a Contracting Officer
       determination of cost allowability is unnecessary.

            Action completed 9/20/2013.

Finding No. OIG-2013-10-06 Commercial Transaction Coded as Government Transfer Payment

Background:

Government contractors are responsible for accounting for costs appropriately and need to be able to
demonstrate that costs claimed have been incurred, are allowable, allocable, and reasonable, in
accordance with the contract and applicable government acquisition regulations.

Criteria:

FAR Subpart 31.2, Contracts with Commercial Organizations, §31.201-2, Determining Allowability,
states:

(a) A cost is allowable only when the cost complies with all of the following requirements:

    1) Reasonableness.
    2) Allocability.
    3) Standards promulgated by the Cost Accounting Standards (CAS) Board, if applicable, otherwise,
       generally accepted accounting principles and practices appropriate to the circumstances.
    4) Terms of the contract.
    5) Any limitations set forth in this subpart.
(b) Certain cost principles in this subpart incorporate the measurement, assignment, and allocability rules
    of selected CAS and limit the allowability of costs to the amounts determined using the criteria in
    those selected standards. Only those CAS or portions of standards specifically made applicable by the
    cost principles in this subpart are mandatory unless the contract is CAS-covered (see Part 30).
    Business units that are not otherwise subject to these standards under a CAS clause are subject to the
    selected standards only for the purpose of determining allowability of costs on Government contracts.
    Including the selected standards in the cost principles does not subject the business unit to any other
    CAS rules and regulations. The applicability of the CAS rules and regulations is determined by the
    CAS clause, if any, in the contract and the requirements of the standards themselves.




2

                                                                                                  Page 28
                                                                                  Attachment 1 (continued)


(c) When contractor accounting practices are inconsistent with this Subpart 31.2, costs resulting from
    such inconsistent practices in excess of the amount that would have resulted from using practices
    consistent with this subpart are unallowable.
(d) A contractor is responsible for accounting for costs appropriately and for maintaining records,
    including supporting documentation, adequate to demonstrate that costs claimed have been incurred,
    are allocable to the contract, and comply with applicable cost principles in this subpart and agency
    supplements. The contracting officer may disallow all or part of a claimed cost that is inadequately
    supported.
§31.201-4, Determining Allocability, states:
A cost is allocable if it is assignable or chargeable to one or more cost objectives on the basis of relative
benefits received or other equitable relationship. Subject to the foregoing, a cost is allocable to a
Government contract if it—
(a) Is incurred specifically for the contract;
(b) Benefits both the contract and other work, and can be distributed to them in reasonable proportion to
    the benefits received; or
(c) Is necessary to the overall operation of the business, although a direct relationship to any particular
     cost objective cannot be shown.
UT-Battelle’s Cost Accounting Standards Board Disclosure Statement (effective 10/1/11) §1.4.0, states:
The cost accounting system serves contract requirements for cost collection and financial reporting
commensurate with DOE's funding and programmatic guidelines. It consists of a multi-level cost object
structure (general ledger accounts, cost centers, internal orders, and WBS elements,) which reflects the
collection of primary cost elements in the general ledger and the association of this cost to the appropriate
final cost objectives that are being supported (DOE Program, Capital, Inventory, or Work-for-Others).
Primary cost elements are defined as labor, material, subcontracts, and other direct costs. The subsequent
distribution and allocation of primary cost will be tracked by cost objects referred to as secondary cost
elements. Hierarchical associations are established within the cost object structure as necessary through
groupings and settlement rules.

Condition:

UT-Battelle improperly coded a commercial vendor payment as a government transfer payment. The
coding was established in the initial purchase requisition as part of the approval process. At that time, the
original intent may have been to utilize an operational component of DOE or another governmental entity
to provide the necessary labor services. However, a subsequent decision was made to utilize a commercial
vendor but no corresponding reclassification of costs was made.

Cause:

UT-Battelle has not established adequate procedures to ensure that the general ledger account entered on
the initial purchase requisition is updated on the purchase order based on subsequent modifications
through the purchase requisition process. Specifically, if a commercial vendor is substituted for a
government operational component of DOE or another governmental entity, the review process does not
ensure that the general ledger accounts are updated.




2

                                                                                                    Page 29
                                                                                   Attachment 1 (continued)


Effect:

When commercial vendor payments are improperly coded as government transfer payments, the
documentation does not support an actual transfer of costs incurred by an operational component of DOE
or another governmental entity for items or effort provided on behalf of UT-Battelle. Also, the total
allocated cost may be over/understated due to the use of the incorrect general ledger account, and the
accounting treatment does not appear to meet the relevant CAS requirements or GAAP classification
requirements.

Recommendation:

We recommend that the Manager, Oak Ridge National Laboratory Site Office, direct the Contracting
Officer to ensure that UT-Battelle properly codes payment transactions in the general ledger.

Management Response:

Concur: The Contracting Officer will issue correspondence to the contractor requiring action verifying
payment transactions are properly recorded in the general ledger.

Action completion date: 6/30/2014

Finding No. OIG-2013-10-07 Membership Costs

Background:

Government contractors are responsible for accounting for costs appropriately and need to be able to
demonstrate that costs claimed have been incurred, are allowable, allocable, and reasonable in accordance
with the contract and applicable government acquisition regulations.

Criteria:

FAR Subpart 31.2, Contracts with Commercial Organizations:

31.205-22, Lobbying and Political Activity Costs, states:

    (a) Costs associated with the following activities are unallowable:

      (1) Attempts to influence the outcomes of any Federal, State, or local election, referendum,
          initiative, or similar procedure, through in kind or cash contributions, endorsements, publicity, or
          similar activities;

      (2) Establishing, administering, contributing to, or paying the expenses of a political party,
          campaign, political action committee, or other organization established for the purpose of
          influencing the outcomes of elections;

      (3) Any attempt to influence—

          (i) The introduction of Federal, state, or local legislation, or



2

                                                                                                     Page 30
                                                                                    Attachment 1 (continued)


         (ii) The enactment or modification of any pending Federal, state, or local legislation through
              communication with any member or employee of the Congress or state legislature (including
              efforts to influence state or local officials to engage in similar lobbying activity), or with any
              government official or employee in connection with a decision to sign or veto enrolled
              legislation;

     (4) Any attempt to influence—

         (i) The introduction of Federal, state, or local legislation, or

         (ii) The enactment or modification of any pending Federal, state, or local legislation by
              preparing, distributing or using publicity or propaganda, or by urging members of the general
              public or any segment thereof to contribute to or participate in any mass demonstration,
              march, rally, fund raising drive, lobbying campaign or letter writing or telephone campaign;

     (5) Legislative liaison activities, including attendance at legislative sessions or committee hearings,
         gathering information regarding legislation, and analyzing the effect of legislation, when such
         activities are carried on in support of or in knowing preparation for an effort to engage in
         unallowable activities; or

     (6) Costs incurred in attempting to improperly influence (see 3.401), either directly or indirectly, an
         employee or officer of the Executive branch of the Federal Government to give consideration to
         or act regarding a regulatory or contract matter.

Condition:

UT-Battelle pays for memberships of employees in certain professional organizations. These costs are
allowable under FAR and the prime contract (DE-AC05-00OR22725). However, any costs allocable to
lobbying activities by the professional organization are unallowable. UT-Battelle maintains a
membership system that contains a table that automatically calculates the unallowable lobbying portion of
the membership. The table has a percentage by vendor that is often based on historical information.

As part of our detailed test work on other specific cost areas, including lobbying costs, a non-statistical
sample of transactions with lobbying costs was selected and the supporting documentation for each
transaction was reviewed to determine if the costs were recorded in compliance with the contract and
applicable government acquisition regulations and the Auditee’s stated methodology for segregating
lobbying related costs.

We noted that for one of the five transactions selected for testing, UT-Battelle based the calculation of the
lobbying activities of the American Physical Therapy Association on an historical percentage. However,
the invoice contained the current percentage of the Federal, State and Division portions of the
membership costs attributed to lobbying activities, which was greater than the historical percentage that
UT-Battelle utilized.

Cause:

UT-Battelle utilizes a table in the membership system to calculate the percentage of membership costs to
allocate to lobbying activities. These percentages are based, in part, on historical percentages by vendor.
However, these historical percentages may not be accurate for a current invoice, and information in the
current invoice that differs from the historical percentages should be used in place of historical

2

                                                                                                       Page 31
                                                                                  Attachment 1 (continued)


percentages. UT-Battelle did not use the most current information, as shown on the invoice, to determine
the percentage of lobbying activities for the American Physical Therapy Association invoice we selected
for test work.

Effect:

The amount of membership allocated to lobbying activities was underestimated, thus UT-Battelle
overstated total claimed costs. While our review of the remaining sample items showed no similar error,
the number of similar instances is unknown.

Recommendations:

We recommend that the Manager, Oak Ridge National Laboratory Site Office, direct the Contracting
Officer to ensure that UT-Battelle:

    1. Calculates membership payments accurately by deducting unallowable lobbying percentages
       based on current information and classify the amount as unallowable membership costs; and,

    2. Reviews other membership payments made to identify additional misstatements of lobbying
       costs.

Management Response:

1. Concur: The Contracting Officer will issue a correspondence requiring the contractor to provide
   reasonable assurance that membership payments deduct the appropriate amount of unallowable
   lobbying percentages.

    Action completion date: 11/30/2013


2. Concur: The Contracting Officer will require the contractor to review other membership payments to
   identify additional misstatements of lobbying costs.

    Action completion date: 1/17/2014



Conclusion

Based upon the performance audit procedures performed and the results obtained, we have met our audit
objectives. We conclude that, except for the findings noted above and detailed in this report, UT-Battelle,
LLC has prepared its FY 2012 SCIC in accordance with applicable Government acquisition regulations of
the FAR, the CAS, and the DEAR, regarding accuracy, allowability, allocability, and reasonableness of
incurred costs. The net total projection of questioned direct costs, based on the results of samples tested,
is $58,966 for FY 2012. UT-Battelle and the DOE will also need to consider the resolution of the
unresolved subcontractor costs identified in Appendix B, upon receipt of final incurred cost audits of
those subcontractors for FY 2012.




2

                                                                                                    Page 32
                                                                               Attachment 1 (continued)


                                                                                         APPENDIX A
Observations
While not considered significant findings, during the course of our audit testing, the following
observations were noted, that we bring to the U.S. Department of Energy (DOE)'s attention:
    •   As part of the testing of the supplemental relocation allowances sample, we noted for one item a
        lump-sum amount was paid for reimbursement of miscellaneous relocation costs, in lieu of actual
        costs. Therefore, there was no invoice or receipt for the costs. Payment of a lump-sum amount
        up to $5,000 for miscellaneous relocation costs in lieu of actual costs is allowable per Federal
        Acquisition Regulation (FAR) 31.205-35(b)(5). UT-Battelle, LLC uses the Oak Ridge National
        Laboratory (ORNL) relocation internal operating procedures. The internal procedures do not
        specify the amount of relocation allowance that can be provided for miscellaneous relocation
        costs. The comprehensive policies should be improved to document the amount of relocation
        allowance to be provided for reimbursement of miscellaneous relocation costs.
    •   In performing related test work we noted that UT-Battelle calculates ongoing (long-term) living
        allowances per diem amounts as follows:
        1. Summarize total annual lodging and Meals and Incidental Expenses (M&IE) costs assuming a
           30 day month. Rates are based on the prevailing General Services Administration (GSA) per
           diem rates at the time of the assignment.

        2. Reduce total annual lodging and M&IE costs as required for long term assignments. (Note:
           From October 10, 2003 to August 30, 2012 the reimbursable rate for off-site assignment per
           diems was at 80%. Beginning September 1, 2012 the new reimbursable rate for the ongoing
           living allowances was decreased to 55% per DOE directive).

        3. The adjusted total ongoing living allowance is divided into equal monthly installments and
           paid to the employee on a monthly basis.

           Per discussion with site personnel this methodology has been in place since before ORNL and
           Y-12 split into separate operations in 2001. There is no formal written policy or procedural
           guidance documenting the method. It has just been established as the standard operating
           procedure. We noted that this methodology utilizes an average rate, rather than actual costs,
           resulting in non-compliance with the Cost Accounting System Disclosure Statement, which
           states the following:
                2.7.1 Travel expenses are charged to cost objectives based on a combination of actual and
                      per diem rates. Lodging and subsistence are charged at actual up to, but not to
                      exceed GSA per diem rates, except for exceptions defined in the Federal Travel
                      Regulations.

           Per the guidance in FAR 31.205-46(a) costs for lodging, meals, and incidental expenses may
           be based on (i) per diem, (ii) actual expenses, or (iii) a combination of a fixed amount and
           actual expenses. Therefore, the methodology is allowable per the FAR. The 2.7.1 Travel
           Policies in the Cost Accounting System Disclosure Statement need a better description to
           reflect the procedures performed.




2

                                                                                                 Page 33
                                                                                Attachment 1 (continued)


    •   In our review of the indirect rate design compliance, we noted that a contractor's practices with
        regard to Cost Accounting Standards (CAS) are considered compliant, absent the Government
        demonstrating a non-compliance with the Standards. Based on the procedures performed we
        have not found UT-Battelle non-compliant with the requirements of CAS 410, Allocation of
        Business Unit General and Administrative (G&A) Expenses to Final Cost Objectives, or CAS
        418, Allocation of Direct and Indirect Costs.

    However, allowability of the cost is subject to reasonableness. We recommend that the Manager, Oak
    Ridge National Laboratory Site Office, direct the Contracting Officer to ensure that UT-Battelle
    demonstrate that:

    1. Costs excluded from the CAS 410 G&A allocation base do not benefit from the activities
       accruing in the G&A cost pool; and,

    2. A $1 million cutoff per year and purchase order is the appropriate limitation for costs included in
       the CAS 418 allocation bases.

    While not required by the CAS or the Federal Acquisition Regulation (FAR), UT-Battelle should also
    seek a written Advance Agreement from DOE for its special allocations.




2

                                                                                                  Page 34
                                                                                                          Attachment 1 (continued)


                                                                                                                      APPENDIX B
Summary of Subcontractor Audit Status- Flexibly-Priced Subcontracts
    SUBCONTRACT          SUBCONTRACTOR'S NAME                   SUBCONTRACT            COSTS          AWARD       STATUS OF FY2012
     (DOCUMENT)                                                    VALUE            INCURRED           TYPE1      SUBCONTRACTOR
         NO.                                                                         IN FY2012                 INCURRED COST AUDITS2
                                                         COST BASED SUBCONTRACTS
      4000009518   United Technologies Corporation                  $12,334,269.00     ($94,272.63)     CS            Status   2
      4000033474   Barge Waggoner Sumner & Cannon Inc               $11,550,097.00      $96,343.04     CPFF           Status   2
      4000071456   Southwest Research Institute                      $9,042,108.38      $41,361.04     CPFF           Status   2
      4000078656   Transportation Research Center,Inc                $6,011,096.17      $60,150.14     CPFF           Status   2
      4000088231   Superpower, Inc.                                  $3,059,827.50    $280,402.87       CS            Status   2
      4000088229   American Superconductor Corporation               $2,489,103.50    $164,927.00       CS            Status   2
      4000057168   Babcock & Wilcox                                  $2,260,855.00     ($34,049.00)    CPFF           Status   2
      4000018973   The University Of Tennessee                       $1,453,318.43      $85,899.80     CNF            Status   2
      4000082090   Sentech Inc                                       $1,099,500.00      $80,237.07     CPFF           Status   2
      4000053931   Boston University                                 $1,049,982.00       $7,042.16     CNF            Status   2
      4000017036   Babcock & Wilcox Technical Svs Gp,                 $999,035.85      ($24,940.50)    CPIF           Status   3
      4000025262   The University Of Tennessee                        $972,478.29       $30,617.43     CNF            Status   3
      4000059726   Curators Of The University Of Missouri             $920,000.00           $11.00     CNF            Status   3
      4000103065   Electric Power Research Institute Inc              $880,899.00     $322,034.50      CNF            Status   3
      4000060996   The Florida State University                       $877,000.00          ($68.71)    CNF            Status   3
      4000082653   The University Of Tennessee                        $513,680.83       $12,915.16     CNF            Status   3
      4000055674   Midwest Research Institute                         $492,672.00        $2,054.27     CPFF           Status   3
      4000102045   General Atomics                                    $373,813.00     $137,126.66      CPFF           Status   3
      4000098058   Lockheed Martin Corporation                        $372,260.00     $189,143.30      CPFF           Status   3
      4000097293   The Regents Of The University                      $300,000.00       $54,787.17     CNF            Status   3
      4000029406   North Carolina State University                    $280,292.00        $1,248.10     CNF            Status   3
      4000077388   The University Of Tennessee                        $207,628.00         ($133.66)    CNF            Status   3
      4000078501   Stevens Institute Of Technology Inc                $200,000.00       $14,815.88     CNF            Status   3
      4000080050   The University Of Tennessee                        $193,905.00        $4,032.42     CNF            Status   3
      4000071849   Lockheed Martin Corporation                        $192,328.00       $20,915.75     CPFF           Status   3
      4000061591   Regents Of University Of California, Davis         $171,976.00         ($360.05)    CNF            Status   3
      4000105741   The University Of Tennessee                        $164,314.00       $30,293.76     CNF            Status   3
      4000096560   The University Of Tennessee                        $164,039.00       $13,572.95     CNF            Status   3
      4000085868   The University Of Tennessee                        $163,287.00       $16,976.23      CS            Status   3
      4000091846   The University Of Tennessee                        $160,000.00       $50,772.33     CNF            Status   3
      4000086349   Clemson University                                 $146,204.00        $8,747.16     CNF            Status   3
      4000090620   Georgia Tech Research Corporation                  $138,450.00       $10,638.66     CNF            Status   3
      4000101818   The University Of Tennessee                        $125,194.00       $55,534.51     CNF            Status   3
      4000054640   Auburn University                                  $119,242.00          $842.69      CS            Status   3
      4000101632   University Of Pittsburgh                           $115,500.00        $3,138.28     CNF            Status   3
      4000054791   Babcock & Wilcox                                   $109,952.00        $3,777.00     CPFF           Status   3
      4000091400   University Of California, Los Angeles                $90,002.00       $7,245.27     CNF            Status   3
      4000104014   Texas Engineering Experiment Station                 $80,089.00      $33,395.66     CNF            Status   3
      4000059846   Babcock & Wilcox                                     $67,981.00      $38,590.00     CPFF           Status   3
      4000106510   North Carolina State University                      $38,600.00      $22,485.71     CNF            Status   3
      4000103906   Vanderbilt University Medical Center                 $35,000.00       $6,891.58     CNF            Status   3
      4000101188   Texas Tech University                                $33,000.00       $5,544.75     CNF            Status   3
      4000114390   Sonoma State University                              $26,433.00      $26,433.00     CNF            Status   3
      4000095988   Regents Of The University Of Michigan                $21,742.58          ($0.01)    CNF            Status   3
      4000107099   Massachusetts Institute Of Technology                $18,056.00      $12,037.14     CNF            Status   3
      4000103437   University Of Maryland                               $15,000.00           $0.00     CNF            Status   3
      4000102176   Northwestern University                               $4,086.42       $4,078.74     CNF            Status   3
                   Subtotal - Cost Based Subcontracts             $60,134,296.95   $1,803,235.62
                                                     TIME & MATERIAL SUBCONTRACTS
      4000032807   DPRA Inc                                         $43,981,229.00    $130,748.72     TMLH            Status   1
      4000082266   Apprise Incorporated                             $13,981,934.65   $3,713,712.00    TMLH            Status   1
      4000104897   Nuclear Consultants And Engineers I              $12,000,000.00   $2,403,414.37    TMLH            Status   1
      4000058878   Russtech Language Services                       $11,993,192.00   $1,418,593.31    TMLH            Status   1
      4000037900   Mpi Business Solutions Inc                       $11,550,000.00    $613,564.99     TMLH            Status   1
      4000090561   Areva Federal Services LLC                       $11,167,608.08   $2,343,532.59    TMLH            Status   1
      4000106383   Culmen International LLC                         $11,133,337.00   $1,257,269.35    TMLH            Status   1
      4000098451   Kema, Inc.                                        $9,700,000.00    $915,164.03     TMLH            Status   1




2

                                                                                                                                   Page 35
                                                                                                   Attachment 1 (continued)

    SUBCONTRACT          SUBCONTRACTOR'S NAME              SUBCONTRACT           COSTS         AWARD       STATUS OF FY2012
     (DOCUMENT)                                               VALUE           INCURRED          TYPE1      SUBCONTRACTOR
         NO.                                                                   IN FY2012                INCURRED COST AUDITS2
      4000112294   SCI Consulting Services Inc                $6,208,503.00    $1,506,576.59   TMLH             Status 1
      4000091446   Oak Ridge Design Partnership               $5,300,000.00     $675,075.48    TMLH             Status 1
      4000081096   Cadre5 LLC                                 $5,250,214.27    $1,335,171.61   TMLH             Status 1
      4000091313   Ch2M Hill Inc                              $4,750,000.00     $372,384.99    TMLH             Status 1
      4000085984   Performance Design Technologies            $4,427,001.00     $629,172.28    TMLH             Status 1
      4000086930   Lancaster Services Incorporated            $4,250,000.00     $744,392.86    TMLH             Status 1
      4000086958   Kelly Services                             $4,250,000.00     $746,872.19    TMLH             Status 1
      4000105155   Gregg Protection Services Inc              $4,166,800.00     $920,547.42    TMLH             Status 1
      4000091899   Design Innovations Architects Inc          $4,000,000.00       $25,821.98   TMLH             Status 1
      4000092003   Engineering Services Group Inc             $3,975,000.00     $258,666.12    TMLH             Status 1
      4000091819   Smee + Busby Architects Pc                 $3,950,000.00     $170,075.67    TMLH             Status 1
      4000074439   IBM                                        $3,873,245.06     $524,338.93    TMLH             Status 1
      4000067532   Cadre5 LLC                                 $3,144,716.20     $368,133.23    TMLH             Status 1
      4000088202   Alliant Corporation                        $3,000,000.00     $281,418.88    TMLH             Status 1
      4000108914   Areva Federal Services LLC                 $2,784,301.00     $697,274.24    TMLH             Status 1
      4000095929   Cdi Corporation                            $2,454,505.20     $584,430.80    TMLH             Status 1
      4000091736   Cannon Design Inc.                         $2,300,000.00       $93,154.02   TMLH             Status 1
      4000107166   Kema, Inc.                                 $2,200,000.00     $634,949.82    TMLH             Status 1
      4000101683   Process Engineering Associates, LLC        $2,065,127.40     $175,813.98    TMLH             Status 1
      4000100876   Sobran, Inc.                               $2,034,302.16     $640,714.33    TMLH             Status 1
      4000085793   Restoration Services Inc                   $2,000,000.00     $421,719.01    TMLH             Status 1
      4000110823   Alloy Fabrications Company                 $2,000,000.00     $264,678.19    TMLH             Status 1
      4000089890   Alutiiq-Mele LLC                           $1,968,489.00     $235,633.67    TMLH             Status 1
      4000108802   Arcis Government Services LLC              $1,927,267.20     $282,371.47    TMLH             Status 1
      4000080595   Ritchey Hume                               $1,904,773.00     $295,055.00    TMLH             Status 1
      4000089917   Alutiiq-Mele LLC                           $1,861,126.15     $351,940.24    TMLH             Status 1
      4000102972   Waste Management Innovations Inc           $1,753,909.00     $249,382.24    TMLH             Status 1
      4000091503   Mesa Associates Inc                        $1,685,000.00     $122,435.99    TMLH             Status 1
      4000093803   Summitec Corporation                       $1,679,461.65     $101,439.37    TMLH             Status 1
      4000109678   Remaxco Technologies LLC                   $1,304,176.00     $416,644.58    TMLH             Status 1
      4000094772   Myatt Consulting, Inc.                     $1,250,057.64     $294,010.16    TMLH             Status 1
      4000083414   Nutex, Inc.                                $1,238,139.00     $186,440.80    TMLH             Status 1
      4000081409   Energetics, Inc.                           $1,153,054.00     $296,725.07    TMLH             Status 1
      4000070278   Trident Resource Corporation               $1,138,985.73     $235,190.63    TMLH             Status 1
      4000090040   Energetics, Inc.                           $1,111,500.00     $303,688.45    TMLH             Status 1
      4000091287   Gc Technical Services Inc                  $1,102,440.00     $303,283.50    TMLH             Status 1
      4000098151   Innovative Design Inc                      $1,055,079.40     $270,516.93    TMLH             Status 1
      4000095073   Instrumental Inc                           $1,030,119.22     $331,464.14    TMLH             Status 1
      4000086960   Denuke Contracting Services, Inc           $1,000,000.00     $171,397.01    TMLH             Status 1
      4000088437   C. S. Engineering Inc                      $1,000,000.00     $248,379.77    TMLH             Status 1
      4000110758   Heery International, Inc.                  $1,000,000.00     $111,118.58    TMLH             Status 1
      4000114845   Areva Federal Services LLC                $27,495,977.22     $130,493.02    TMLH             Status 2
      4000040598   Technology Management Company, Inc.       $24,011,622.39    $3,425,590.30   TMLH             Status 2
      4000057833   Staffme.Net LLC                           $10,191,567.17    $1,920,606.32   TMLH             Status 2
      4000073482   Booz Allen Hamilton Inc                    $3,628,751.45     $617,092.01    TMLH             Status 2
      4000095675   ICF Incorporated, LLC                      $1,509,717.46     $159,333.45    TMLH             Status 2
      4000082692   Cannon Design                              $1,292,362.60        $1,048.65   TMLH             Status 2
      4000055736   Donald Goldberg                            $1,229,787.38       $32,650.00   TMLH             Status 2
      4000077448   Booz Allen Hamilton Inc                    $1,046,880.20     $252,345.73    TMLH             Status 2
      4000084760   Alliant Corporation                        $1,036,000.00     $330,583.70    TMLH             Status 2
      4000079851   Energetics, Inc.                            $865,250.00      $109,440.51    TMLH             Status 3
      4000091553   Shaw Environmental, Incorporated            $800,000.00        $73,864.46   TMLH             Status 3
      4000107275   High Bridge Associates, Inc.                $782,110.00      $537,252.54    TMLH             Status 3
      4000097915   National Resource Management LLC            $779,824.68      $144,233.18    TMLH             Status 3
      4000089277   Cadre5 LLC                                  $679,070.00        $85,946.70   TMLH             Status 3
      4000110633   Alion Science And Technology Corpor         $672,810.00      $151,800.00    TMLH             Status 3
      4000090325   A & N Associates Inc                        $601,900.00      $277,223.16    TMLH             Status 3
      4000102838   National Home Performance Council Inc       $599,834.95      $319,059.65    TMLH             Status 3
      4000089621   Sentech Inc                                 $536,714.32        $96,400.27   TMLH             Status 3
      4000106325   Icf Incorporated, LLC                       $496,425.00      $143,864.83    TMLH             Status 3
      4000087349   Sentech Inc                                 $495,410.50      $113,107.68    TMLH             Status 3
      4000091468   Energetics, Inc.                            $495,000.00        $47,540.43   TMLH             Status 3
      4000081467   Public Solutions, Inc.                      $491,042.72      $101,010.26    TMLH             Status 3
      4000103337   Cannon Design Inc.                          $473,723.00      $358,483.84    TMLH             Status 3
      4000101552   ICF Incorporated LLC                        $468,984.00      $238,208.98    TMLH             Status 3
      4000089798   Professional Recruiting & Staffing,         $442,670.00      $115,474.50    TMLH             Status 3




2

                                                                                                                      Page 36
                                                                                                   Attachment 1 (continued)

    SUBCONTRACT          SUBCONTRACTOR'S NAME              SUBCONTRACT         COSTS        AWARD       STATUS OF FY2012
     (DOCUMENT)                                               VALUE         INCURRED         TYPE1      SUBCONTRACTOR
         NO.                                                                 IN FY2012               INCURRED COST AUDITS2
      4000087625   Technical & Field Engineering Inc.         $434,600.00     $130,841.49   TMLH             Status 3
      4000109874   Innovative Design Inc                      $420,624.00     $255,423.50   TMLH             Status 3
      4000109207   Boston Engineering Corporation             $404,998.83     $404,998.83   TMLH             Status 3
      4000114253   National Home Performance Council Inc      $399,997.62     $135,650.73   TMLH             Status 3
      4000096160   Macrosys LLC                               $392,845.59     $131,404.84   TMLH             Status 3
      4000083354   Ingenium Professional Services Inc         $344,383.00      $88,608.16   TMLH             Status 3
      4000110243   Science Applications International         $340,123.00      $69,859.41   TMLH             Status 3
      4000102403   BCS Incorporated                           $339,189.00     $175,340.93   TMLH             Status 3
      4000069138   Econotech                                  $331,931.40      $16,773.84   TMLH             Status 3
      4000056180   Alliance To Save Energy                    $307,907.39      $24,748.15   TMLH             Status 3
      4000094707   Battelle Memorial Institute                $298,074.00     $262,279.64   TMLH             Status 3
      4000084820   Navarro Research & Engineering Inc         $291,000.00      $33,203.25   TMLH             Status 3
      4000113847   Mesa Associates Inc                        $285,175.68      $31,365.83   TMLH             Status 3
      4000074655   XCEL Engineering, Inc.                     $279,682.35      $65,394.68   TMLH             Status 3
      4000057838   Data Support Services                      $272,295.84      $43,284.52   TMLH             Status 3
      4000112230   Pecos, Inc.                                $268,237.00     $119,843.70   TMLH             Status 3
      4000086799   Connexions Group Inc., The                 $266,259.00      $17,836.63   TMLH             Status 3
      4000112759   XCEL Engineering, Inc.                     $230,559.00      $34,913.24   TMLH             Status 3
      4000089873   Information International Associate        $230,345.21      $70,952.27   TMLH             Status 3
      4000112646   Sentech Inc                                $229,841.84      $69,289.47   TMLH             Status 3
      4000113563   Potts Software LLC                         $226,770.00      $52,060.00   TMLH             Status 3
      4000095181   Barrow Arctic Science Consortium           $222,214.51        $184.90    TMLH             Status 3
      4000109869   IBM                                        $199,000.00     $100,800.00   TMLH             Status 3
      4000105492   Dielectric Communications                  $196,089.88      $73,697.48   TMLH             Status 3
      4000093608   Energetics, Inc.                           $187,500.00      $54,582.27   TMLH             Status 3
      4000076638   Jay Bradsher, Inc.                         $178,866.00      $37,050.00   TMLH             Status 3
      4000112144   Enovation Group LLC                        $176,400.00      $29,347.92   TMLH             Status 3
      4000109349   Diditco Inc                                $165,811.96     $125,331.75   TMLH             Status 3
      4000101038   Martinfederal Consulting LLC               $151,044.49      $21,960.09   TMLH             Status 3
      4000110595   Disabled American Veterans Company         $139,297.26     $139,297.26   TMLH             Status 3
      4000102734   Logos Technologies, Inc.                   $128,998.38     $128,998.38   TMLH             Status 3
      4000113879   Disabled American Veterans Company         $120,893.00      $24,860.15   TMLH             Status 3
      4000112218   Strategic Marketing Innovations Inc        $120,000.00      $35,090.97   TMLH             Status 3
      4000114232   Erica Lane Enterprises Inc                 $118,679.80      $31,599.60   TMLH             Status 3
      4000081889   MPI Business Solutions Inc                 $112,800.00      $41,600.00   TMLH             Status 3
      4000114500   Relis LLC                                  $112,423.20      $75,797.31   TMLH             Status 3
      4000073146   Shaw Environmental & Infrastructure        $103,723.32      $16,666.96   TMLH             Status 3
      4000112212   Ingenium Professional Services Inc          $95,424.00      $33,348.00   TMLH             Status 3
      4000114237   Zekiah Technologies Inc                     $90,836.62      $58,442.85   TMLH             Status 3
      4000090206   Stella Group, Ltd.                          $89,943.00       $3,110.40   TMLH             Status 3
      4000096383   Enterprise Security Inc                     $89,308.73      $24,808.73   TMLH             Status 3
      4000098485   National Resource Management LLC            $87,676.05        $333.50    TMLH             Status 3
      4000111932   Quanta Technology, LLC                      $83,400.00      $29,445.39   TMLH             Status 3
      4000109102   Martinfederal Consulting LLC                $81,479.58      $49,209.03   TMLH             Status 3
      4000110110   TDS Exhibits, Inc.                          $80,986.00      $72,696.34   TMLH             Status 3
      4000111513   Nobletek                                    $80,100.00       $5,550.00   TMLH             Status 3
      4000111240   Ingenium Professional Services Inc          $80,067.20       $1,760.64   TMLH             Status 3
      4000094025   Imtech Corporation                          $77,260.80      $19,717.60   TMLH             Status 3
      4000104671   Applied Engineering & Technology            $75,231.00      $29,166.00   TMLH             Status 3
      4000113657   Capital Sales Group LLC                     $73,144.00      $68,306.33   TMLH             Status 3
      4000114907   Alpenglo, Inc.                              $72,000.00      $43,800.00   TMLH             Status 3
      4000087946   Ventyx Inc                                  $69,503.13       $7,600.00   TMLH             Status 3
      4000094593   Cool Roof Rating Council Inc                $66,829.74      $25,109.09   TMLH             Status 3
      4000108569   Sentech Inc                                 $64,991.90      $64,991.90   TMLH             Status 3
      4000104030   Altros                                      $50,117.55      $26,878.65   TMLH             Status 3
      4000100670   Knight Piesold And Co.                      $49,999.00       $2,247.25   TMLH             Status 3
      4000111156   Temp Systems Inc                            $47,920.00      $26,846.72   TMLH             Status 3
      4000094834   BCS Incorporated                            $47,087.00        $350.33    TMLH             Status 3
      4000104185   National Resource Management LLC            $40,019.40        $555.83    TMLH             Status 3
      4000112440   Cannonball Hill, Inc.                       $36,000.00      $22,697.20   TMLH             Status 3
      4000098966   Science In Safety                           $32,000.00       $4,160.00   TMLH             Status 3
      4000114002   Martinfederal Consulting LLC                $31,524.00       $6,139.38   TMLH             Status 3
      4000115069   Xcel Engineering, Inc.                      $30,768.55      $30,768.55   TMLH             Status 3
      4000103164   Sturman Industries, Inc.                    $30,720.00       $3,801.53   TMLH             Status 3
      4000104901   Pervasive Software Inc                      $28,020.00      $28,020.00   TMLH             Status 3
      4000090379   EM Turner English Services                  $26,750.00        $300.00    TMLH             Status 3




2

                                                                                                                    Page 37
                                                                                                                         Attachment 1 (continued)

    SUBCONTRACT              SUBCONTRACTOR'S NAME                       SUBCONTRACT               COSTS          AWARD        STATUS OF FY2012
     (DOCUMENT)                                                            VALUE               INCURRED           TYPE1       SUBCONTRACTOR
         NO.                                                                                    IN FY2012                  INCURRED COST AUDITS2
      4000110610     Ingenium Professional Services Inc                        $25,465.25     $25,465.25          TMLH             Status 3
      4000112720     Pro-2-Serve                                               $25,000.00     $10,219.14          TMLH             Status 3
      4000112471     SAP Public Services, Inc.                                 $21,769.40     $20,916.25          TMLH             Status 3
      4000115270     Performance Design Technologies                           $20,050.00     $20,036.52          TMLH             Status 3
      4000117071     Wimberly Lawson Wright Daves & Jone                       $14,760.00      $3,504.00          TMLH             Status 3
      4000108969     National Resource Management LLC                          $13,689.00     $10,494.90          TMLH             Status 3
      4000110631     Ingenium Professional Services Inc                        $13,214.40      $7,928.64          TMLH             Status 3
      4000115197     Techcorr USA Management LLC                               $12,972.00     $12,318.16          TMLH             Status 3
      4000069921     Trane U.S. Inc.                                           $11,602.00        $271.76          TMLH             Status 3
      4000115243     Andrea Truan Illustration And Desig                       $10,136.25     $10,136.25          TMLH             Status 3
      4000116137     Insite Development Corporation                            $10,000.00      $1,646.51          TMLH             Status 3
      4000114754     CDM Federal Services Inc.                                  $9,800.00      $2,644.16          TMLH             Status 3
      4000112608     Disabled American Veterans Company                         $7,620.00      $1,413.51          TMLH             Status 3
                     Subtotal - Time & Material Subcontracts             $322,211,795.15 $43,445,248.19

                     Total Subcontracts                                  $382,346,092.10     $45,248,483.81

Award Type 1:
CNF – Cost-No Fee
CPFF – Cost Plus Fixed Fee
CPIF – Cost Plus Incentive Fee
CS – Cost Sharing
TMHL – Time & Materials/Labor Hour

Audit Status 2:
Status 1: Active subcontract valued at $1,000,000 or more for which interim audit has been requested but not performed.
Status 2: Subcontract pending closeout valued at $1,000,000 or more for which interim and final audit has been requested but not performed.
Status 3: Subcontract pending closeout valued at less than $1,000,000 for which final audit has been requested but not performed.

NOTE: In certain cases incurred costs were offset by accrual amounts resulting in either a net credit or zero balance.




2

                                                                                                                                              Page 38
                                                                          Attachment 1 (continued)


                                                                                   APPENDIX C

Summary of Indirect Costs Included in the FY 2012 Statement of Costs Incurred and Claimed

          Indirect Cost Pool           FY 2012 Costs
General and Administrative           $     189,727,266
Institutional                               27,098,524
Lab Directed Research and Dev Pool          32,902,904
Total                                $     249,728,694




2

                                                                                            Page 39
                                                                               Attachment 1 (continued)


                                                                                         APPENDIX D
Summary of Prior Year Open Allowable Cost Findings

FY 2010
Audit Report   Recommendation                                       Status
IA2011-3       Recommendation 1 - Business Services                 Corrective actions have been
               Directorate should determine the allowability of     taken. UT-Battelle is awaiting
               questioned costs we were able to quantify for FY     DOE action on the questioned
               2010 totaling $174,541.15 and reimburse DOE          costs.
               for the amount determined to be unallowable.

IA2011-3       Recommendation 2 – Business Services and             Corrective Actions have been
               F&O Directorate should take action to avert          taken. The recommendation is
               future AVID purchases of items that are not          open pending an effectiveness
               appropriate based on the circumstances of their      review by Internal Audit.
               use, for example activity drinks consumed by
               workers who are not subject to heat stress. Also
               review FY 2011 purchases to identify such items
               and reimburse government funds for amounts
               determined to be unallowable.

IA2011-3       Recommendation 6 – Business Services and             Corrective Actions have been
               Nuclear Science & Engineering Directorates           taken. The recommendation is
               should promote other methods of payment for          open pending an effectiveness
               miscellaneous travel expenses for visiting           review by Internal Audit, who is
               foreign nationals, i.e., methods other than the      waiting to perform the review until
               employee’s ORNL-issued travel cards or               additional costs of this type have
               personal credit cards.                               been paid.

IA2011-3       Recommendation 10 – Business Services                Corrective actions have been
               Directorate should support efforts to determine      taken. The recommendation is
               and implement a more cost-effective and              open pending an effectiveness
               automated process to account for and reconcile       review by Internal Audit.
               conference expenses.

OAS-V-13-11    Recommendation 1 - We recommend that the             Corrective actions have been
               Manager, Oak Ridge National Laboratory Site          taken. This recommendation is
               Office, direct the Contracting Officer to, using a   open pending review and approval
               risk-based approach, ensure that UT-Battelle         of the Contract Closeout
               audits subcontracts as required by its contract,     Procedures Document submitted to
               and the IA Implementation Design.                    DOE for review and approval on
                                                                    August 28, 2013.

OAS-V-13-11    Recommendation 2 - We recommend that the             Corrective actions have been
               Manager, Oak Ridge National Laboratory Site          taken. This recommendation is
               Office, direct the Contracting Officer to require    open pending review and approval
               UT-Battelle to develop and implement a formal,       of the Contract Closeout
               documented risk assessment process for               Procedures Document submitted to
               determining when subcontracts should be subject      DOE for review and approval on
               to close-out audits.                                 August 28, 2013.

2

                                                                                                Page 40
                                                                            Attachment 1 (continued)


OAS-V-13-11   Recommendation 3 - We recommend that the           An action plan has been identified.
              Manager, Oak Ridge National Laboratory Site        A determination regarding the
              Office, direct the Contracting Officer to make a   allowability of unresolved
              determination regarding the allowability of the    questioned costs has not been
              unresolved questioned costs identified in this     made.
              review and recover those amounts determined to
              be unallowable.

FY 2011
IA2012-7      1. Subcontract Closeout Audit Process:             Corrective actions have been
                      • Implement a formal process to            taken. This recommendation is
                         provide consistency in performing       open pending review and approval
                         and documenting risk assessments,       of the Contract Closeout
                         reconciliations, and work paper         Procedures Document submitted
                         reviews and update desk procedures      to DOE for review and approval
                         accordingly. Also, consider utilizing   on August 28, 2013.
                         automated work paper software to
                         facilitate formalizing this process
                         and reduce document storage costs.

IA2012-7      2. Prepayments                                     Corrective actions have been
                      • Ensure the process established by        taken. This recommendation is
                         the recently implemented Internal       open pending an effectiveness
                         Operating Procedure (IOP) for           review by Internal Audit. UT-
                         authorizing and recording of            Battelle submitted a review of the
                         prepayments results in the proper       Prepayment policy which
                         reporting of prepayments.               concluded that the provisions of
                                                                 the Prepayment policy are being
                                                                 properly effected and provide an
                                                                 appropriate control mitigating the
                                                                 risk that prepayments are not
                                                                 properly identified and recorded to
                                                                 Internal Audit in response to the
                                                                 recommendation.




2

                                                                                              Page 41
                                                                             Attachment 1 (continued)


           3. Accruals:                                          Corrective actions have been
                   • SAP System Calculation- Ensure the          taken. The recommendation is
                        formula programmed in SAP for            open pending an effectiveness
                        automatic accruals uses a method         review by Internal Audit.
                        determined to provide a reasonable
                        estimate of the allocation of costs to
                        the periods in which they are
                        incurred.
                   • Multiple PO Line Items – Evaluate
                        controls related to posting and
                        cancelling automatic accruals for a
                        group of multiple PO line items and
                        implement corrective actions where
                        appropriate to provide assurance that
                        individual line items are accounted
                       for properly.
                   • Other Inaccurate Accruals –
                       Determine whether other steps
                       should be taken to improve the
                       accrual process to minimize
                       inaccurate accruals.

IA2012-3   4. Supplement or replace reviews of random            This recommendation is open
              samples of travel expense reports by utilizing     pending an effectiveness review
              data mining techniques to target expenses          by Internal Audit. UT-Battelle
              most likely to result in questioned costs.         began applying data mining
                                                                 techniques in 1st quarter fiscal year
                                                                 2013.




2

                                                                                                Page 42
Attachment 2
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
                                                                   IG Report No. OAS-M-14-05

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
